<html>
<title> - [H.A.S.C. No. 113-2]A REVIEW OF SEXUAL MISCONDUCT BY BASIC TRAINING INSTRUCTORS AT LACKLAND AIR FORCE BASE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                          [H.A.S.C. No. 113-2]

                     A REVIEW OF SEXUAL MISCONDUCT

                     BY BASIC TRAINING INSTRUCTORS

                       AT LACKLAND AIR FORCE BASE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 23, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE

  79-490                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="395e4956795a4c4a4d515c5549175a565417">[email&#160;protected]</a>  






                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
               Jeanette James, Professional Staff Member
                 Debra Wada, Professional Staff Member
                    James Weiss, Research Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, January 23, 2013, A Review of Sexual Misconduct by 
  Basic Training Instructors at Lackland Air Force Base..........     1

Appendix:

Wednesday, January 23, 2013......................................    53
                              ----------                              

                      WEDNESDAY, JANUARY 23, 2013
A REVIEW OF SEXUAL MISCONDUCT BY BASIC TRAINING INSTRUCTORS AT LACKLAND 
                             AIR FORCE BASE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Lisak, Dr. David, Ph.D., Forensic Consultant.....................    36
McNally, CMSgt Cindy, USAF (Ret.), Service Women's Action Network    38
Norris, TSgt Jennifer, USAF (Ret.), Protect Our Defenders........    40
Rice, Gen Edward A., Jr., USAF, Commander, Air Education and 
  Training Command, U.S. Air Force...............................     4
Welsh, Gen Mark A., III, USAF, Chief of Staff, U.S. Air Force....     4

                                APPENDIX

Prepared Statements:

    Lisak, Dr. David.............................................    74
    McKeon, Hon. Howard P. ``Buck''..............................    57
    McNally, CMSgt Cindy.........................................   139
    Norris, TSgt Jennifer........................................   146
    Smith, Hon. Adam.............................................    59
    Welsh, Gen Mark A., III, joint with Gen Edward A. Rice, Jr...    61

Documents Submitted for the Record:

    Letter from Hon. Jackie Speier to Gen Edward A. Rice, Jr., 
      Dated
      November 16, 2012..........................................   188
    Statement of Elaine Donnelly, President, Center for Military 
      Readiness..................................................   181

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................   191
    Mr. Enyart...................................................   191
    Ms. Sanchez..................................................   191

Questions Submitted by Members Post Hearing:

    Mr. Smith....................................................   195
    Ms. Speier...................................................   201
    Ms. Tsongas..................................................   200
 
A REVIEW OF SEXUAL MISCONDUCT BY BASIC TRAINING INSTRUCTORS AT LACKLAND 
                             AIR FORCE BASE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, January 23, 2013.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning. Thank you for joining us for our first hearing of the 
113th Congress. I think it is appropriate that we begin our 
oversight with a subject that this committee has been vigilant 
in addressing for many years. At the same time, I find it 
extremely disturbing that despite the collective work of 
Congress, the Department of Defense, the military services, and 
the dedicated groups who advocate on the part of victims of 
this heinous crime, sexual assault and sexual misconduct, 
remains a problem within our arms forces.
    Today we meet to receive testimony on sexual misconduct by 
basic training instructors at Lackland Air Force Base. The 
events at Lackland are the most recent example of sexual 
assaults that have plagued our military for far too long. This 
tragic example where 32 instructors have either been found 
guilty, have been charged with, or are still being investigated 
for crimes against 59 trainees, begs the question: How could 
this have happened? How could the system and in particular, the 
leadership, have failed to protect the men and women who serve 
our Nation from sexual predators who also wear the uniform?
    While I applaud the Air Force for pursuing indepth 
investigations to find answers to these questions, I am 
particularly disturbed to learn that there was significant 
delay reporting the allegations to the proper authorities when 
they first came to light. Equally troubling is that no action 
was taken by local leadership when the reporting delay was 
uncovered. This to me, is unacceptable.
    I look forward to hearing from General Welsh and General 
Rice how the Air Force has addressed these issues to eliminate 
the possibility that sexual misconduct goes undetected in the 
future.
    Make no mistake, Congress shares the responsibility for 
preventing sexual assault within the military and assuring 
victims that their cases will be prosecuted to the fullest 
extent of the law.
    Over the past 5 years, Republicans and Democrats have 
joined forces to put real reforms in place. We have ensured 
that victims of sexual assault are taken seriously, provided 
medical care and support, and that cases are investigated and 
prosecuted.
    Last year Congress passed reforms on how the military 
tracks sexual assaults in order to paint a reliable picture of 
just how big the problem is. We also established a commission 
to take a critical look at the Uniform Code of Military Justice 
and make recommendations for reform to make certain that the 
military justice system can successfully prosecute sexual 
assault. However, legislation is not the only answer.
    Commanders at every level and at every Service must make 
eliminating sexual assault and all forms of sexual misconduct 
from their commands the highest of priorities. Senior leaders 
at all levels must hold commanders accountable for aggressively 
pursuing allegations of sexual misconduct. We will accept 
nothing less.
    I understand that the Air Force has already made several 
changes to improve the safety and effectiveness of basic 
training. I would like to hear from our second panel if the 
reforms and safeguards recently put in place are sufficient. I 
have no doubt that there is more to be done. My visit to 
Lackland in September renewed my belief that the young men and 
women who volunteer to join our Armed Forces are the finest in 
the Nation. These young men and women have earned the respect 
of the Nation. They deserve the respect from their leaders and 
fellow service members.
    Before I ask Ranking Member Smith for his opening remarks I 
would like to remind our members that at the same time as we 
hold this hearing the Air Force continues to prosecute the 
remaining cases at Lackland. When military perpetrators of 
sexual assault are tried by courts-martial, public statements 
by military and civilian leaders, especially senior leaders, 
about the guilt or innocence of an alleged perpetrator can be 
perceived as or there may even be undue command influence on 
the outcome of the trial. That means public testimony about 
Lackland could be used as grounds for a mistrial by defense 
attorneys.
    This isn't an outcome anyone wants. To that end, I will 
give latitude to General Welsh and General Rice to answer 
questions to the extent that it will not prejudice ongoing 
criminal prosecutions. We are all committed to eradicating 
sexual assault in our Armed Forces, but first, we have to 
respect the victim's need for urgent and sure justice.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 57.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and I concur in all of 
your remarks and I thank you for that strong statement. I too 
have a statement which I will submit for the record and just 
summarize briefly here.
    I thank General Welsh and General Rice for being here and 
for the leadership that they have shown on this issue. This 
obviously is a very serious problem. Being able to protect the 
men and women who serve in our military is job one. If there is 
not trust, if the people who are serving do not trust the 
people who are supposed to be leading them, then the entire 
system breaks down. And sexual assault and sexual violence is a 
major problem throughout the military, and I think that is one 
big point to keep in mind throughout this hearing. This is not 
just Lackland. I mean, certainly, this is an extreme example 
and one that I hope we can learn from, one that certainly 
continues to need to be resolved. The cases need to be 
prosecuted. We need to get to the bottom of exactly what 
happened, but this is a problem that has plagued the military 
for far too long, and that we on this committee, and throughout 
the military, needs to be addressed in order to make sure our 
military can continue to function at the ability that we all 
expect it to.
    So I thank the chairman for having this hearing. I do want 
to thank both General Welsh, General Rice, and Secretary 
Panetta and others, and we have had many meetings in the last 
couple of years and it is apparent to me that the Department of 
Defense takes this issue very seriously and is now trying to do 
their best to figure out what went wrong and how to fix it. It 
is completely unacceptable that we got to this point, that it 
wasn't solved before this, but at least now we are seeing the 
seriousness from the Department of Defense that I think is 
warranted.
    I also want to thank, there are too many members on this 
committee to name who have taken a leadership role on this 
issue and trying to make sure that we put the best possible 
legislation in place to make the changes necessary to protect 
our men and women from this type of assault and violence, so I 
thank them for that leadership as well.
    But going forward, the critical thing is to make sure that 
we do much, much better than we have done now, to learn what 
are the changes that are going to be done within the Department 
of Defense, within legislation, to do a better job of 
protecting our men and women.
    At the end of the day, the culture needs to change. I have 
heard a number of members talk about this. I forget who made 
this point, but basically when it gets to the point where if 
you are serving in the military, you know that your advancement 
in the military is dependent upon protecting the men and women 
and being out front to protect the victims and make it clear 
throughout your command that this is completely unacceptable 
behavior that will be punished.
    When everybody serving in the military knows that that is 
one of the primary things that they are going to be judged on 
for advancement, when that cultural change is made, that is the 
only point at which I believe we will begin to seriously 
address this issue.
    I hope we can learn more from this hearing today how we get 
to that point. Again, I thank the chairman and I thank the 
generals for being here this morning. I look forward to the 
testimony and the members' questions.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 59.]
    The Chairman. Thank you very much.
    At this time, without objection, I ask unanimous consent 
that an additional statement from the Center for Military 
Readiness would be included in the record of this hearing.
    Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 181.]
    The Chairman. I want to echo Mr. Smith's comments about 
General Welsh and General Rice. They have been most helpful and 
those who conducted the investigation, I couldn't commend them 
more for the seriousness with which they have taken this and 
for the leadership that they have brought to this issue.
    At this time, now, I understand we may have votes at any 
time, so what I would like to do in the interest of trying to 
make sure that we have time to properly conduct this hearing, 
if we just have one vote on the rule, we will not break. We 
will ask the members to go vote and keep moving so that we can 
expedite this.
    We will hear from General Welsh, and he will divide the 
time up between him and General Rice. General Welsh.

STATEMENT OF GEN MARK A. WELSH III, USAF, CHIEF OF STAFF, U.S. 
                           AIR FORCE

    General Welsh. Thank you, Chairman McKeon, Ranking Member 
Smith, and distinguished members of the committee, for the 
opportunity to speak with you today. This topic is obviously a 
tough one, but we don't have to enjoy the subject to appreciate 
the privilege of being before this committee. Thank you for the 
opportunity, and General Rice and I are truly honored to be 
here.
    Mr. Chairman, with your permission I would like to start by 
having General Rice give you an update on the incident and 
allegations and activities conducted relative to the basic 
military training investigations at Lackland, and then I will 
follow that with a few Service-wide things that we are doing to 
try and follow-up on activities to learn from it and to do 
everything we can to ensure that it never happens again.
    The Chairman. Certainly.

  STATEMENT OF GEN EDWARD A. RICE, JR., USAF, COMMANDER, AIR 
         EDUCATION AND TRAINING COMMAND, U.S. AIR FORCE

    General Rice. Thank you, Chairman McKeon, Ranking Member 
Smith, and distinguished members of the House Armed Services 
Committee. Thank you for the opportunity to provide comments on 
the Air Force's investigation into sexual misconduct by basic 
military training instructors at our basic military training 
complex at joint base San Antonio-Lackland in San Antonio, 
Texas.
    Over the past 9 months we have conducted a very deliberate 
and comprehensive investigation. Over 550 investigators have 
been involved. They have conducted over 7,700 interviews. We 
have surveyed every basic military training graduate from the 
last 10 years for whom we have contact information. Although we 
have conducted a 10-year lookback, the vast majority of the 
allegations are of alleged misconduct that occurred over the 
past 3 years. During this 3-year period, 855 airmen have been 
assigned to military training instructor duty. Of this group of 
855 instructors, we have completed disciplinary action for 
sexual misconduct against 8. We have preferred court martial 
charges against another 9, and 15 other instructors are under 
investigation. The allegations against these instructors range 
from sexual assault to the inappropriate contact with students 
after they graduated from basic military training and were no 
longer under the authority of the instructor.
    At this point 24 of the military training instructors are 
presumed innocent unless and until proven guilty beyond a 
reasonable doubt. We have identified 59 victims or alleged 
victims of this criminal activity or misconduct. Regardless of 
whether a victim or alleged victim was the victim of a sexual 
assault, the recipient of an inappropriate email, or willingly 
participated in an unprofessional relationship with an 
instructor in violation of established policy, we have offered 
each of them the full range of available victim support 
services and no victim or alleged victim has been charged with 
a policy violation or otherwise held accountable as part of 
this investigative process.
    The 32 instructors who have been disciplined, or who are 
under investigation, represent less than 4 percent of the 
instructors who have served in basic military training over the 
past 3 years, and I believe it is important to underscore that 
the vast majority of our instructors serve with distinction in 
a very demanding duty assignment.
    That said, it is completely unacceptable to us that so many 
of our instructors have committed crimes or violated our 
policies and we clearly failed in our responsibility to 
maintain good order and discipline among too many of our 
instructors in basic military training.
    Among the most important and fundamental responsibilities 
of command is the requirement to maintain good order and 
discipline among the members of the military organization. This 
responsibility cannot be delegated. All of the changes we are 
making in basic military training are directed in one way or 
another at helping our commanders discharge this fundamental 
responsibility.
    Although it is still very early, the evidence indicates 
that our efforts are making a difference. We have not had a 
reported incident of sexual misconduct in basic military 
training for the past 7 months. This is not to say that we 
believe we are nearing the end of our work; on the contrary, we 
know this is not the beginning of the end but the end of the 
beginning of a journey that can never end. The key to success 
over the next weeks and months, and years is to sustain the 
intense level of focus we have devoted to this issue over the 
past 9 months.
    To this end, I believe the most significant action we are 
taking to address this critical issue is the establishment of 
the Recruiting, Education, and Training Oversight Council. This 
council will include the senior leadership of my command and 
will, one, review the progress and effectiveness of the actions 
we are now implementing; two, provide an expanded perspective 
on future actions we will take to prevent problems from 
recurring; and, three, advise me on strategic issues affecting 
airmen safety and the maintenance of good order and discipline 
in basic military training.
    In short, this council will help us institutionalize the 
intense level of focus we must sustain if we are to 
successfully defeat the threat of sexual misconduct in the 
basic military training environment.
    I look forward to your questions after General Welsh's 
remarks. Thank you.
    General Welsh. Thank you, Ed. And I completely agree that 
the BMT [basic military training] investigations don't mark the 
end of anything. The Air Force has recommitted itself to 
ensuring that every airman is treated with respect. It is not a 
one-time fix. It has to be a way of life. This collection of 
events at basic military training has been stunning to most of 
us in the Air Force. There is simply no excuse for it. There is 
no justifiable explanation, and there is no way we can allow 
this to happen again.
    The Air Force's goal for sexual assault is not simply to 
lower the number. The goal is zero. It is the only acceptable 
objective. The impact on every victim, their family, their 
friends, the other people in their unit, is heart-wrenching, 
and attacking this cancer is a full-time job, and we are giving 
it our full attention.
    Of General Maggie Woodward's 46 recommendations presented 
to General Rice at the end of her investigation, 23 are already 
fully implemented, 22 more will be implemented by November of 
this year, and the final recommendation has actually been 
separated from this particular activity. It has to do with 
shortening the length of basic military training itself, and 
General Rice is considering that under a separate curriculum 
review that is already under way.
    Some of these recommendations have applicability to the 
entire Air Force and we are working now to build them into the 
larger Air Force Sexual Assault Prevention and Response 
Program, into our Air Force leadership training at every level, 
and into our investigative and legal processes.
    Since becoming the Chief of Staff I have worked pretty hard 
to express my deep concern with the issue of sexual assault, 
and I have shared my thoughts with airmen at every level of our 
Air Force. I have also shared it with every commander in our 
Air Force. They understand, especially our senior commanders 
understand, as both Ed Rice and I do, that the American people 
trust us with their greatest treasures, their sons and 
daughters. They expect us to lead them with honor, to value 
each of them, and to treat them as if they were our own. We do 
not have a greater responsibility than that. Every Air Force 
supervisor, every Air Force commander must be actively engaged 
in this effort. If they don't get actively engaged, I consider 
them part of the problem.
    I met with our Air Force four-star generals in early 
October to ensure they knew exactly how I felt about the 
subject. Not surprisingly, they all feel the same. I directed 
all 164 of our Air Force wing commanders to come to Washington, 
D.C. in late November so that I could discuss this issue with 
them face-to-face. There is simply no room for misunderstanding 
as we move forward from here.
    Secretary Donley approved an Air Force-wide health and 
welfare inspection during the first 2 weeks of December. The 
intent was to ensure that we provide every airman a work 
environment that allows them to excel and to ensure each of 
them feels valued and is treated with respect. The detailed 
results of this inspection are available to your staff and have 
been publicly released.
    And finally, a couple of weeks ago in my monthly letter to 
airmen, I reinforced the fact that obscene, vulgar, or 
disrespectful images, songs, or so-called traditions are not 
part of our heritage and will not be accepted as part of our 
culture. And while these things may or may not directly relate 
to sexual assault, they certainly do create an environment more 
conducive to sexual harassment and unprofessional 
relationships, and I personally believe that both of those are 
leading indicators for sexual assault.
    We have worked very hard to ensure we are aligned with 
sexual assault policy and on issues from both the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff. We have 
also worked with the Office of the Secretary of Defense to 
create special victims teams comprised of investigators and 
attorneys who have received specialized training in sexual 
assault cases. That effort has been encouraged and supported by 
members of this committee, and I thank you for that.
    A cadre of 24 special investigators have now finished 
training and 60 Air Force attorneys have been identified and 
trained to serve as Special Victims Counsel providing 
comprehensive and compassionate legal assistance to victims. 
That program goes fully into effect on the 28th of January, but 
in fact we have already assigned seven Special Victims Counsel 
to victims around the Air Force.
    We continue to employ over 3,100 volunteer victim 
advocates, and in accordance with the fiscal year 2012 National 
Defense Authorization Act, we are on track to hire and place a 
full-time fully accredited victim advocate at every 
installation by October 1st of this year.
    Mr. Chairman, there are many other things we are attacking, 
we are doing to deal with this problem that I would be happy to 
discuss during the question-and-answer period. But in closing, 
let me just say that I will never stop attacking this problem. 
We will never slow down our efforts to ensure our victims 
receive the best, most capable, and most thoughtful care and 
advice possible until we can eliminate the problem. And I 
promise every member of this committee that the United States 
Air Force leadership team will never quit working to eliminate 
this horrible crime from the ranks of our Air Force.
    Thank you to the committee members for the help you have 
already given us on this effort and for the time you are 
spending here today. General Rice and I are looking forward to 
your questions.
    [The joint prepared statement of General Welsh and General 
Rice can be found in the Appendix on page 61.]
    The Chairman. Thank you very much.
    I just was informed that we do have the vote and it will be 
three votes, so we will have to recess and return as quickly as 
we can after the votes.
    General Welsh, during your confirmation hearing you 
testified that everyone in the Air Force is trying to do the 
right thing and figure out some way of stopping sexual assault. 
You know, I don't think this is an incident only at Lackland. I 
don't think it is an incident only in the Air Force. I don't 
think it is only in the military. I think it is a societal 
problem. We cannot fix a societal problem. We can address, as 
you are, the Air Force problem, and I know in talking to 
General Dempsey and the other chiefs, they are also looking at 
all of the branches of the military.
    However, you acknowledge that what was being done at that 
time was not adequate to reverse the trend. What are your 
thoughts on how the Air Force can reverse the trend? Do you 
have some specific examples other than what you have mentioned 
already that still need to be done?
    General Welsh. Mr. Chairman, I think there are a lot of 
things that need to be done and we need to be doing them from 
now until the Air Force quits being an institution. The biggest 
thing is committing to dealing with people on an individual 
level every day by every supervisor and commander. I don't 
think institutional directives will solve the problem. I think 
caring more for every airman will help solve the problem. We 
have been trying a number of programs, a number of training 
activities, a number of educational initiatives. While some of 
them may be successful, they may be helping the problem, we are 
certainly not reversing the trend in a dramatic way. And so I 
believe we need to keep looking for new and different ways to 
approach the problem. As we find things that work, we should 
expand on them, and continue to exploit them.
    The Special Victims Counsel I believe is a good example. If 
we can get the 30 percent or so of the victims who initially 
report as unrestricted and allow us to begin an investigation, 
who then step away because of concerns about a number of 
things, I won't go into all the details that we are hearing, 
you know all the reasons they decide not to participate in the 
prosecution. But some of those, clearly, are related to the way 
we conduct an investigation, the way we advise the victim, the 
way we make them feel as they go through the follow-up victim 
care and preparation for trial. We have to eliminate those 
things and keep those victims engaged in the process of 
finding, prosecuting, and removing the perpetrators, because if 
we don't there will be additional victims.
    I believe there are predators who commit this crime. I 
don't think everyone who commits sexual assault is inherently a 
predator, but there are predators. We have to find them, 
hopefully screen them out early if there is a way to develop 
tools that allow us to do that before they come into the 
military. If not, we have to find them through indications from 
the people around them who know them. And if they do commit a 
crime, we have to stop them after the first one and not allow 
them to continue.
    We also have to work very hard to identify those activities 
that lead to bad behavior, and there are a number of them. We 
deal with them with our children all the time. Our younger 
airmen are nodifferent. They are involved in the same social 
circles; they do the same kind of activities; and there are the 
same indicators. A young man who routinely binge drinks and 
loses control of himself is going to conduct bad behavior. That 
bad behavior could result in sexual assault. Let's stop the 
binge drinking. Let's identify the behavior early. But that 
takes a clear understanding of the issue at every level of our 
Air Force, starting with our youngest airmen and our youngest 
officers, and it requires supervisors and commanders who never 
quit engaging.
    I think that is the key, Mr. Chairman.
    The Chairman. The command-directed investigation initiated 
by you, General Rice, found that the MTI [military training 
instructor] manning levels at Lackland did not support optimum 
oversight during basic training. The report recommends 
increasing MTI manning. Given that the Air Force has drawn down 
military personnel and is facing continued reduced budgets and 
the potential of sequestration, how will you fill these extra 
MTI requirements?
    General Rice. Thank you, Mr. Chairman. As I reported, my 
response to the command-directed investigation to the Chief and 
the Secretary of the Air Force and talked about some of the 
resource requirements that would be necessary in order for us 
to implement fully the recommendations. I am happy to say that 
resources were not a constraint in terms of my ability to 
address the issues.
    I asked for more MTIs, military training instructors. They 
have been authorized. We are in the process of hiring them and 
training them. In the meantime, we have effectively achieved 
the impact of having two military training instructors assigned 
to each flight, which is the end state that we want to get to, 
by both bringing in temporary instructors on temporary duty 
status and rearranging some of the staff positions to put them 
on the line, if you will, to perform military training 
instructor duty because we thought that was important to do now 
and not wait for the assignment and personnel process and the 
training process, quite frankly, to catch up.
    So we have been authorized the additional positions by the 
Air Force. Quite frankly, the long pole in the tent is our 
ability to effectively train enough instructors. We are in the 
process of doing that right now, but that will take a little 
bit of time for us to complete. In the meantime, I am satisfied 
that we have been able to achieve the effect through other 
mechanisms.
    Thank you.
    The Chairman. Thank you. The investigation directed by 
Major General Leonard Patrick into the training wing's response 
to the MTI misconduct found that there was significant delay in 
reporting by senior MTIs. The investigation also revealed that 
when the commander learned of the delay no corrective action 
was taken.
    What actions have you taken to address these failures and 
to raise awareness among the Air Force leaders of the 
importance of aggressively pursuing reports of misconduct?
    General Rice. Thank you, Mr. Chairman. In the specific 
instance, I believe you are referring to in the command-
directed investigation, I directed a separate investigation 
into the delayed reporting and did find that there was 
culpability among members of the supervisory chain in terms of 
informing the commander in a timely manner of an issue that the 
commander should have been aware of, and I have held people 
accountable for that delay in reporting. I did find in that 
specific instance that when the commander knew of it that he 
took appropriate action initially, but there were other 
instances that were identified in the command-directed 
investigation and other areas that we have discovered through 
other means where I was not satisfied with the actions that 
commanders and other leaders took in response to reports of 
misconduct.
    We have addressed that in a number of different ways, to 
include putting in place mandatory reporting requirements such 
that any incident of misconduct or maltreatment must 
immediately be reported up the chain of command, not just to 
the squadron commander but to the wing commander and up to the 
two-star commander who has overall responsibility for non-
flying training within the Air Force. If it involves sexual 
misconduct, this report must occur within 24 hours and the 
alleged offender is removed immediately from the position of 
either the staff position or the instructor position until we 
have had enough time to sort through the details of what went 
on and ensure that it is proper to either go to an 
investigation fully or to place that instructor back into the 
duty position.
    So partly, we have handled it through this idea of having 
mandatory reporting procedures that allow us to ensure that 
these, that the proper information is transmitted to the proper 
people at the right times in order to deal with this. I would 
say a secondary, and a second order way that we have dealt with 
this has to do with the level of seniority and experience that 
we have placed now in the basic military training environment 
such that we have more senior experience and seasoned leaders 
and supervisors making decisions about what constitutes an 
infraction and what doesn't, and what should be done about it.
    This is not an environment where we want to test or 
determine whether someone is a good leader, whether someone has 
had supervisory experience. It is a place where we bring people 
who have demonstrated strong leadership, strong ability to 
supervise, a strong history of making good decisions. And so 
part of what you have seen in the changes that we have made is 
to ensure that we get more experienced, more seasoned leaders 
into these positions so that when they get that information 
they can make better decisions.
    Thank you.
    The Chairman. Thank you. After Ranking Member Smith's 
questions, we will recess.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I appreciate that. I 
think you covered the subject fairly thoroughly. Just a couple 
of quick questions. One of the difficulties is, how do you 
measure success going forward? And it is difficult because, you 
know, on the one hand you could say, well, we have fewer sexual 
assaults, but you also don't want people to be not reporting. 
As you are sort of looking at--you know, are you making 
progress just within the Air Force to get at the broader issue? 
What are you looking for to figure out whether or not you are 
moving forward and making progress in reducing and, as General 
Welsh said, getting to the point where you eliminate sexual 
assault within the Air Force?
    General Welsh. One of the things, sir, I think that we need 
to do is establish and maintain a clear baseline of 
information. In 2010, we conducted a Gallup survey that gave us 
numbers on the incidence and the prevalence of sexual assault 
and reporting within the Air Force. We are in the process now 
of contracting for the follow-up survey to that, the 2013 
survey, to try and follow up on the initial baseline and see 
which direction we happen to be moving. Is our reporting 
increasing and, if so, why? Are the types incidents changing? 
Are the number of incidents changing? Is the demographic of the 
victim changing? All of those things I think are critical to 
baseline our effort and then figure out what is working and 
what isn't working.
    I think the other thing that is not something that we can 
grab a hold of and show you is the feedback we get from people 
within the Air Force. We have made a huge effort recently to 
start getting to a discussion at the small unit level of 
respect, treating each other with respect. The feedback we are 
getting from that effort is interesting because it is clear 
that we haven't done enough in this area; that people don't 
feel valued; that we have a certain population of our Air Force 
that has been going along to get along by ignoring things that 
they are uncomfortable with in their workplace or in their work 
environment or with the people who work around them, whether it 
is mannerisms, poor language, pictures hanging on the wall, 
whatever it might be. That feedback----
    Mr. Smith. That is incredibly important. I am sorry to 
interrupt, but it is just, you have to talk to people to feel 
what is it that is making them feel intimidated? And it may 
surprise, you know, higher-ups what that is exactly. So 
understanding that I think is critical. So I appreciate you 
making that point. Go ahead.
    General Welsh. But I think that is where it starts. The 
other thing we need to do is identify the numbers in a clear 
way so that we can have an unemotional, logical discussion 
about a very emotional topic when it comes to how are we doing 
in prosecution, conviction, et cetera, and what are the tools 
we can use to get better. We have major disconnects between the 
numbers we use in the Department and in the Department of the 
Air Force, our numbers versus if you look at a prosecutor's 
numbers on the outside. I don't think the numbers are that far 
apart, my personal opinion. Now, I base that on the fact that I 
took the Air Force numbers and asked our staff judge advocate 
to use the RAINN [rape, abuse, & incest national network] 
methodology to compute our percentages for convictions, 
prosecutions, et cetera. Internally when we did that it was 
within about a percentage point of most of the mean data that 
they have. And what we have done to follow-up with that is to 
take that to RAINN, and I have asked our staff judge advocate 
to sit with a representative from RAINN and together put these 
numbers together so we can share with you what the numbers are 
relative to something that is considered a standard or at least 
a baseline in the nonmilitary world just so we can determine 
where the problems really exist. We spent a lot of time focused 
on numbers, and if the numbers are not consistent, if we are 
not talking apples to apples, it is hard to figure out where 
you put the most effort.
    For us, the level of effort, the number of resources we 
apply has got to be focused in a way that has the most effect.
    Mr. Smith. I just have one more quick question and we do 
have to run. I briefly prosecuted domestic violence cases and 
you mentioned sometimes the victims won't come forward. Can you 
tell me what--I think within the military, certainly, you know, 
you have got the broad cultural challenges that we talked 
about, but one of the advantages you have is you have options 
in terms of punishment, discipline, and other things that a 
normal criminal justice system wouldn't have.
    How are you planning on using those options in situations 
where you may not be able to prosecute because of, you know, 
various evidence things, but you still know there is a problem 
that needs to be addressed? Can you explain some of the 
discretion that you use within the military chain of command to 
again change the culture, punish perpetrators, and discourage 
this behavior?
    General Welsh. Yes, sir. Let me make a general comment and 
then I will ask Ed to add some detail on the specific incidents 
at Lackland.
    Of the Lackland cases, of the 59 incidents that we are 
investigating, 45 of those are cases that we couldn't prosecute 
under a sexual assault prosecution. They are prosecuted for 
unprofessional relationships, which is something the Uniform 
Code of Military Justice gives us the opportunity to engage on 
where you might have a very difficult time prosecuting outside 
the military. For a little more detail, though, let me ask Ed 
to expand on that.
    Mr. Smith. Okay.
    General Rice. I think commanders have and will continue to 
use the entire suite of tools that they have to enforce 
discipline. The court martial process using the Uniform Code of 
Military Justice is only one of those tools, and as General 
Welsh said, in the cases that we are looking at, at Lackland, 
we have cases where, as a commander looked at all of the 
evidence that was available to him or her and decided that a 
court martial was not the appropriate venue to get to the right 
answer in terms of justice in that case, and so they used some 
of the other tools that are available to them uniquely in the 
military justice system.
    I think it is something that is not as well understood 
oftentimes in terms of the decisions that commanders make in 
terms of the venue that is used to achieve the right outcome in 
a case, and the fact that we can use nonjudicial punishment and 
other forms that in many cases would have the same sanction as 
you would find in a court martial, but are done in a way that 
does not require the same level of standards of proof that a 
court martial would, is a very important tool that commanders 
can use in order to enforce discipline and get to a better 
outcome in more cases than if they did not have that tool.
    Mr. Smith. And to set that cultural norm, and change it.
    General Rice. Yes.
    Mr. Smith. I appreciate that. I think we have all got to 
run and vote, so I will yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you. The committee will stand in recess 
for about 15 minutes or so. Thank you very much.
    [Recess.]
    The Chairman. The committee will come to order. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and Generals Welsh and 
Rice. Thank you for being here today. It is really uplifting to 
me, General Welsh, as you were quoting Air Force Secretary 
Michael Donley, he indicated that the Air Force is a family. 
And that is the way I believe, too. And for me it is firsthand. 
My dad served in the Flying Tigers in the Army Air Corp. I am 
very grateful. I have a nephew who is serving in the Air Force 
today. I served 31 years in the Army Guard and Reserve. I have 
got four sons serving in the Air Force and Navy today, and so 
it is family. And we want the best for our family members. We 
want them to achieve to their highest, a fulfilling achievement 
of military service which to me is an opportunity, and so the 
issues that you are dealing with must be addressed.
    I am particularly grateful to General Rice that you were 
ahead of the curve. Your leadership, and by selecting Major 
General Margaret Woodward to conduct the command-directed 
investigation, has been so positive, and I want to thank you. 
And I would just be grateful if any of my family members could 
serve with you. So thank you for what you have done.
    And indeed, with General Woodward's report, in meeting with 
her, I was so impressed by her determination, her confidence, 
and she of course came through with 22 findings. And the 
findings then directed 46 recommendations, and these 46 
recommendations are real-world ways to address the problems for 
the best of our military. And I know that you will be 
implementing 45 of the 46 recommendations and from each of you 
I would like to get a report on what is the status of 
implementing these recommendations?
    General Rice. Thank you, sir. We have to date implemented 
23 of the 46 recommendations. As you know, there was one that I 
decided was not appropriate for this forum, so we are going to 
implement 45 of the 46. And we have completed our 
implementation of 23 of them. Some of the most important near-
term actions we have been able to complete, especially as it 
addresses leadership, and as I indicated in response to an 
earlier question, the reporting requirements to ensure that 
leadership is notified in a timely manner of issues. We are on 
pace to implement the remaining recommendations, 22, by 
November of this year. Some of them require a more deliberate 
process for implementation, such as ensuring that we get the 
right leaders in position through the assignment cycle instead 
of just pulling people in who may not be appropriate for the 
position. As I indicated earlier, we have got to go through the 
right process for training. We have some experience of what 
happens when we try to overload the training system. We did 
that not too long ago and the results were not satisfactory. So 
I have directed that we do this in a very aggressive but 
deliberate manner so that we get quality training done.
    And so I am comfortable that we have taken action on the 
most important recommendations near-term. Those that we 
couldn't implement in the way that we want to finally implement 
them, we have taken initial temporary action to achieve the end 
state and I am briefed weekly on our progress in implementing 
the rest and we will get at those quickly.
    Mr. Wilson. And indeed, I worked on such issues as a JAG 
[Judge Advocate General] officer in the South Carolina Army 
National Guard. A concern I have are trainees being reluctant 
to report misconduct. There is always a concern about 
retaliation or peer pressure. How is this being addressed?
    General Rice. You have highlighted one of the most 
challenging issues that we have, and that is, how do we get 
quality feedback from everyone, both trainees, instructors, and 
others who are part of this system? We have a system of getting 
feedback now, but it is not effective enough. When I look at 
the 59 victims, less than a handful came to us to provide us 
feedback on what happened. Totally unsatisfactory. We have got 
to find a better way of connecting with them. I think that as 
part of the investigative process we have broken some important 
ground in how to do that better as an institution. We know that 
you can't just ask the question once and expect that the 
original, the initial answer is always going to provide an 
accurate assessment of what is going on, and so how we talk to 
people and the persistence with which we engage them in the 
right way is very key to this.
    We also know that although victims oftentimes themselves 
won't talk to us or report for any number of reasons, they do 
talk to other people in many cases. They talk to their friends, 
they talk to their family. They talk to co-workers, and by 
engaging those people in the right way we have been able to get 
a great deal of additional information on the cases that we 
have today. I believe this area of feedback and accurate 
feedback is one that we are going to continue to explore.
    I have asked the RAND Corporation to specifically look at 
this issue. It is easy for me to sit down and write down a 
bunch of questions, you know, over a couple of hours and think 
that I have an effective survey. The actual facts tell us that 
that isn't very effective, and to do this right, requires, I 
think, a sophisticated understanding of people and how they 
feel about these issues. And so they have begun this process 
and I think are going to help us understand how better to get 
at this area of better feedback.
    Thank you.
    Mr. Wilson. Thank you very much.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, the 
witnesses, generals, for being before us. My question is, of 
those military training instructors who have been convicted or 
are currently under investigation in the Lackland case, did 
their service record show any history of unprofessional 
behavior or sexual harassment prior to this?
    General Rice. I am not aware of any that showed any 
behaviors of sexual harassment or sexual misconduct. We have a 
screening process that before you can become a military 
training instructor we look back at your history for 5 years 
and you had to have essentially a clean history. That was 
waiverable by the group commander, and so that is another area 
where we have addressed that process to look at the background 
screening program and to assure ourselves that we are doing 
everything that we can to not bring, as I said earlier, not 
bring people into this environment that don't have a very 
strong and proven record of disciplinary history in addition to 
job performance.
    Ms. Sanchez. Okay. In the Air Force if an airman or an 
airwoman is found to be involved in a sexual harassment case, 
how does the Air Force proceed?
    General Welsh. In a sexual harassment case, yes, ma'am, the 
same way we deal with any other misconduct with an airman. UCMJ 
[Uniform Code of Military Justice] is an option that is 
available to commanders and their legal advisers. You go 
through an investigative process and you make what you believe 
is the appropriate and proper decision.
    Ms. Sanchez. So if you are being screened, if you want to 
be one of these instructors and you are being screened and you 
have had some sexual harassment in the past on the job, would 
it necessarily be on your record?
    General Welsh. I can create a scenario where it would not 
be, Congresswoman.
    Ms. Sanchez. Various scenarios where they might not be.
    General Welsh. Yes, ma'am, and others where it would be. I 
think it depends on the case, but yes.
    Ms. Sanchez. Because it is at the discretion of commanders 
or certain people, right, as to how they are going to deal with 
it. And a lot of times, a lot of times the sexual harassment in 
this type of situation may not show up on somebody's record. Am 
I correct?
    General Welsh. I believe you and I might disagree on the 
term ``a lot of times.'' I wouldn't tolerate it as a commander.
    Ms. Sanchez. You wouldn't tolerate it, but there are 
various instances, correct, where the commander can have the 
choice of doing other things?
    General Welsh. Certainly it has happened.
    Ms. Sanchez. If this instructor or wannabe instructor is 
being transferred to another unit, would that new commander 
necessarily know that they had had a sexual harassment episode 
in the past?
    General Welsh. Let me answer generically, and then I will 
ask Ed to address if there is a specific issue related to the 
Lackland investigation that we are walking towards. If an 
individual was transferred as a result of poor performance, bad 
behavior related to sexual harassment, I would be astonished if 
it was not somehow relayed to the gaining unit and in his 
record. If they were being transferred as a matter of a routine 
transfer and there had been a decision made that the sexual 
harassment was not substantiated, for example, then it would 
probably not be in the record.
    Ms. Sanchez. Or if there might have been an incident but 
the commander decided he would handle it in a different way and 
it wouldn't be show up on the record, then this person could be 
transferred somewhere and that would never pass along with 
them?
    General Welsh. I would just tell you that yes, that could 
happen. If I, or any commander I know, including the one 
sitting next to me, knew about one of the commanders acting 
that way, we would remove them from command.
    Ms. Sanchez. While I wish all of our commanders were held 
to that standard. It is my understanding sometimes they don't 
actually hold themselves to that standard.
    I am asking these questions because I am trying to find 
out, you know, we have seen through studies that sexual 
harassment leads in many cases to sexual assault. And so we 
really have to be cognizant of trying to, you know, handle 
these things, these issues, and to really put it on people's 
records so that we don't promote them, move them, et cetera, 
and let them know that, well, they got away with it in this 
case. Sometimes it is a progressive sort of situation.
    So my next question is about the Air Force commander's 
conduct of climate assessment. The GAO [Government 
Accountability Office] report in September 2011, told us that 
this wasn't consistently done. How is this done in the Air 
Force? We have now put in the 2013--I am sorry, in the fiscal 
year 2013 NDAA [National Defense Authorization Act] that 
climate reports have to be done. There are two reasons why 
people don't like to do them, we learned, was commanders are 
resistant to conducting them, and the command lacked an equal 
opportunity adviser to help conduct it. So what are you doing 
about this, because we know that if we had climate assessments 
some of this harassing kind of a situation might have been put 
forward. What are you doing now?
    The Chairman. The gentlelady's time has expired. If you 
could answer that for the record.
    Ms. Sanchez. I would like that written for the record, 
please, Mr. Chairman.
    General Welsh. We will be glad to, Mr. Chairman. Thank you.
    [The information referred to can be found in the Appendix 
on page 191.]
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate you 
holding this hearing and the other hearings that you have also 
held and your attention on the legislative side to us trying to 
address the sexual assault issue. You have been a leader on 
this and I appreciated your support as my co-chair Niki Tsongas 
does, who is the co-chair of the Sexual Assault Prevention 
Caucus. You have been a great advocate as we have worked with 
the Senate on these provisions.
    Gentlemen, we know why this happens. It happens where--we 
come to this time where we say how in the military could there 
have been such a systematic breakdown of leadership and not 
know? We know why, and it is absolutely an issue of culture. We 
can try to pass laws, we can try to pass legislation, but until 
we break the culture that allows the environment for this to 
occur, we are never going to be able to make these changes from 
the seats up here in Congress. It has to come from the seats 
that you have, from the leadership that you have, and I want to 
thank you because I believe that you have turned to this issue. 
But I want to focus on the issue first of culture to really 
identify how bad this is and why the military and DOD 
[Department of Defense] needs to address this issue, first of 
culture.
    I had two tragedies occur in my district. Maria Lauterbach, 
who was a Marine who came forward with an allegation of rape 
and was subsequently murdered by the accused, and Kori Cioca, 
who had been revictimized by the system, and my office provided 
assistance to her. And we all know her story through the movie 
The Invisible War. But in the Maria Lauterbach case, I want to 
read to you a letter I got back from the Marines. After Maria 
Lauterbach had been viciously murdered by her accused, we 
contacted the Marines and asked them, how could you not know 
that she was at risk for a violent crime or a violent action or 
assault, and they actually wrote back this letter to me, which 
I have here from Lieutenant General Kramlich, U.S. Marines, 
Director, Marine Corps Staff. And I asked him this question: 
``Doesn't a rape accusation inherently contain an element of 
force or threat?'' And this is the written answer that I got 
back as a sitting Member of Congress: Lauterbach, the victim, 
Lauterbach never alleged any violence or threat of violence in 
either sexual encounter.
    So I have first for you, gentlemen, a question that is 
relatively simple. Have you ever heard of a nonviolent rape?
    General Rice.
    General Rice. No.
    Mr. Turner. General Welsh?
    General Welsh. No, Congressman, I have not.
    Mr. Turner. I appreciate that. Because that is the answer I 
have gotten in every hearing that I have started with that 
question because that is basically part of the problem of the 
culture of understanding that this is a crime, that this is 
violence.
    And I want to tell you another story; I have a question for 
you there. We were at the Marine Commandant's house, sitting 
around his dining room table. My co-chair, Niki Tsongas, was 
there, she can corroborate this story. We were having a 
discussion on the issue of culture and the need to change the 
culture within the Department of Defense. When we were all 
done, we had all identified the issues that needed to be 
addressed, and the Marine Commandant's wife said, ``Before 
every one leaves, you need to hear this.'' And she turned to a 
senior female officer who was sitting around the table and said 
to her, ``Could you tell them what you told me earlier? If you 
were subject to a sexual assault, would you report it?''
    And she said ``No.''
    Here is a Marine senior female officer sitting at the 
Commandant's table and she said ``No.''
    I would like to address that issue with both of you because 
clearly that is the culture. The concern is the fear of coming 
forward of the fact that they would be subject to 
revictimization, that their career would be subject to a 
disadvantage. And as we hear all the stories of the victims, 
the basic issue that we have is their concern of fear of coming 
forward.
    Now, I want to ask both of you, you had to see in this and 
you have to see in the culture of the military that part of 
what happened here in this case and these number of cases that 
you have is this fear of people who are victims from coming 
forward.
    So I want to ask you to discuss that, of the fear of the 
victims and how you change that culture.
    The second thing is, and, General Welsh, you made a comment 
that I kind of cringed at. Because I hear this through the 
military and it is a term that goes I think partly to the--to 
some of the disconnect in the view of this. You said, ``We have 
to stop bad behavior.'' It is not bad behavior, it is a crime. 
And I think the people around it, the non-victims, they don't 
feel comfortable either because they have a similar fear.
    We only have 30 seconds to go. Gentlemen, if you could 
begin to comment on that.
    General Welsh. The bad behavior I was referring to, 
Congressman, is behavior before a crime is committed by people 
who will eventually commit a crime if we don't stop the at-risk 
behavior----
    Mr. Turner. Appreciate that distinction.
    General Welsh [continuing]. Of the potential perpetrator.
    The key to solving this problem, every time I talk to an 
Air Force audience the first question I ask them about this 
issue is, why on what was undoubtedly the worst day of a 
victim's life did they not turn to us for help?
    We stand beside them in combat areas, we go to war with 
them, we protect each other's lives. We talk about this 
constantly. We are missing something fundamental in the human-
to-human interaction that will allow them to feel safe enough 
to come to us and report and let us put our arms around them 
and help them through this horrible event in their life. You 
are right, Congressman, that is at the heart of the problem.
    Mr. Turner. Gentlemen, if you make that your priority, we 
are going to go a long way in being able to address this. Thank 
you.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. As Congressman Turner 
has alluded to and by the mere fact of this hearing, I think 
you know that there are many of us on this committee who take 
this issue very seriously and many who have worked so hard to 
address it, to address it and move you all ahead. So I thank 
you both for the efforts you have put forth to address sexual 
misconduct in the Air Force. It is a crime that continues to 
shock us with its regularity. And, in particular, General 
Welsh, I appreciate the efforts you have made since you became 
Air Force Chief of Staff, most recently in bringing all of the 
164 wing commanders to Washington to discuss this most serious 
issue.
    But I think we all know, as Mr. Turner just alluded to, as 
others have, that in order for changes to really take hold the 
culture of the military has to change. And it is a multifaceted 
effort.
    Mr. Turner told what you brought him to this issue. What 
brought me to it was meeting with a nurse soon after I had been 
elected to Congress about 5 years ago. She had been deployed 
several times. She herself had never been sexually assaulted. 
But I asked her if it was as prevalent as I was beginning to 
learn. And she said, ``Ma'am, I'm more afraid of my own 
soldiers than I am of the enemy.''
    So that tells you that this is a really a very challenging 
situation that you confront. And the cultural change has to 
happen not just among our officers, but among our enlisted 
service members as well who make up about 80 percent of the 
force.
    So as you talk about what you are doing and you are 
starting at the top, how do you change culture across the 80 
percent? What are you doing at that level? How do you encourage 
everyone to embrace the efforts that you are currently engaged 
in?
    Because I fear if you don't and aren't successful there we 
will be coming back again and again and again. You will tell us 
your good stories, but we will continue to hear very shocking 
situations that you have said will not occur again.
    General Welsh. Thank you, Congresswoman, for giving me the 
opportunity to comment on this.
    I have never said it will not occur again. I said we can't 
accept this. It is horrible. We all know that.
    Human behavior, as you well know, because you are actively 
involved in this every single day, is very difficult to change. 
I don't believe the entire Air Force has a culture of sexual 
assault. I don't believe that. I believe there are units, there 
are places over time, as people change and personalities take 
over that we create pockets where culture is a major problem. 
Ed will tell you that that is what happened at Lackland, this 
BMT investigation.
    I don't believe that everybody in the United States Air 
Force accepts a culture of sexual assault. We have officers, we 
have NCOs [noncommissioned officers], we have civilians in our 
Air Force who have daughters who are working side by side with 
airmen around the world. They are not going to tolerate a 
culture of sexual assault.
    Ms. Tsongas. But, General, what do you do? What do you do 
to change the culture across that 80 percent, not at the wing 
commander level. What are the specific steps that you can take 
to begin to address that?
    General Welsh. You start with simple things. The number one 
thing we have tried to do is increase the battle rhythm in 
addressing this issue. As an example, this is a sheet that just 
shows activities that involve every level of supervision and 
command in the Air Force for January to March of 2013. And 
there are things like videos for me and the Chief Master 
Sergeant of the Air Force, to the force, it is commanders' 
conferences, it is four-star sessions, it is command chief 
sessions at every MAJCOM [Major Command] level. It is an 
iteration that goes down at the unit level; every chief and 
every squadron is getting together with the wing command chief 
to discuss this issue. It is commanders' calls down to the 
squadron level. It is roll call at the flight level. And it is 
in every accessions training, it is in every PME [professional 
military education] course. It is a matter of getting this 
discussion going and keeping it going, not just for a short 
period of time, so it becomes part of who we are, part of the 
way we operate.
    Ms. Tsongas. How do you institutionalize that that goes 
forward once you are no longer the Air Force Chief of Staff? 
How do you make sure that that continues?
    General Welsh. I meet every week now with our Sexual 
Assault Prevention and Response Team on the air staff. Because 
I think you have to drive this from multiple levels. We meet 
weekly. If I am out of town, my vice-chief meets with Brigadier 
General Eden Murrie, who runs this for us, with our A1 
Lieutenant General Darrell Jones, and our experts in this area.
    We create activities that what I have asked them to do is 
every week bring in something new, something we haven't tried, 
some idea they found somewhere else, from a Member of Congress, 
from an advocacy group, from a university or another Service 
that tried something that seemed to work, at a certain base or 
certain demographic group. And then let's talk about the logic 
of implementing this thing. And we create a battle rhythm where 
we are talking about this, we are implementing new ideas, we 
are assessing how well they work. We stop doing the ones that 
don't seem to have a major impact and continue the ones that 
seem to be making a difference.
    It has got to become part of the fabric of how we operate. 
It is no different than the way we operate aircraft every day. 
We talk about it, we communicate regularly on it. We meet, we 
come up with new approaches to save money, to increase 
effectiveness. We have to do the same thing on the command side 
of the house.
    That is where we are starting, Congresswoman.
    The Chairman. Gentlelady's time has expired.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Rice, General Welsh, thank you both for coming here 
today to testify on the problems of sexual assault in Air Force 
basic training at Lackland Air Force Base.
    One question I have, General Rice, I think you mentioned 
that one of the conclusions out of this was to reduce the 
training time, the number of weeks, I guess, at Lackland Air 
Force Base. Is that correct?
    General Rice. It was a recommendation that was in the 
commander-directed investigation. It was the 46th 
recommendations that I said I would deal with in a different 
forum. So we are looking, as we always do, at the length of 
basic military training, that the length of the training will 
be determined by the training that we need to accomplish and 
not based specifically on addressing this issue.
    Mr. Coffman. Thank you. Let me just tell you, obviously, 
your training is inadequate. Because you have a culture in the 
United States Air Force that allowed these really pervasive 
sexual assaults to occur by your senior enlisted personnel 
during basic training. And, you know, the purpose of basic 
training or any entry-level period of training at any of the 
branches of service--and I have been through two of them, Army 
and Marine Corps--is to really indoctrinate that soldier, 
airman, marine, or sailor into customs and courtesies of that 
respective branch of service and to the rules associated with 
the Uniform Code of Military Justice that spans all of our 
Services equally.
    And so, obviously, something is missing in that training.
    So I would ask you, you need to reinforce that training, I 
think not reduce the training. And they need to come out of 
there, the airmen, the men and women in uniform that serve in 
the United States Air Force, with a solid understanding of what 
the values of the United States Air Force are. Because, 
obviously, those senior enlisted that perpetrated these crimes 
were not sufficiently indoctrinated as to the values of the 
United States Air Force.
    Would you like to respond?
    General Rice. Yes, sir. I appreciate the question. I 
completely agree that what makes this so egregious in basic 
military training is exactly for the reason that you stated, 
which is this is the place where we have to inculcate the basic 
values of our Service on our newest airmen. And when we violate 
the trust that we have to do that, and that responsibility, it 
is difficult to describe the damage that happens to those 
individuals and to us as an institution.
    I agree a hundred percent.
    I would say, you know, you are right, there is an element 
of training to this. But at the end of the day, we have people 
who knew well what the rules of the policies were, who knew 
well the difference between right and wrong and decided to make 
a wrong choice. And so part of that I can address with 
training. Part of this has to do with people's values of what 
they perceive as wrong and what is right. And how I get at that 
is partially training. But I think I have got to think more 
broadly about how I affect someone's calculus about actions 
that they are going to take. It is why we look at this not just 
from a dissuade perspective, having people make the right 
decision because it is the right decision, but a recognition 
that some people are not going to be dissuaded regardless of 
the training that I have. And I have got to deter them. I have 
got to have them make a calculation in their mind that the 
consequences of their actions are going to be negative enough 
that they aren't going to take it.
    So as much as I am concentrating on the training piece of 
this, I am also focusing on the detect, deter, and hold 
accountable piece because I know that there are people that I 
have to do that with.
    Mr. Coffman. General Welsh, I would agree with you on a 
very critical point. And that is this, that I think that it is 
important that those entering the Service have a moral 
foundation. Because I think you are right, that people that 
don't have a moral foundation, you can put them through the 
toughest training in the world and at the end of the day 
everything will be a calculus as you describe as to what is the 
risk and reward for my conduct, versus what is morally the 
right thing to do. But I do want to stress that that discipline 
comes from that entry-level training. And, of course, I think 
that no doubt it has to be reinforced at all times.
    But thank you for your testimony today. I yield back.
    The Chairman. Gentleman's time has expired.
    Mr. Castro.
    Mr. Castro. Thank you, Mr. Chairman.
    And thank you, Generals, for your testimony. I proudly 
represent San Antonio, Texas, the home of Lackland Air Force 
Base. Thank you for coming to testify today.
    I think when there are scandals like this there are 
essentially two things that must happen. First, we need to make 
sure that justice is swiftly served. The second is that we have 
got to learn from our mistakes and implement policies to change 
our practices.
    In regard to that, do we know, for example--have we 
investigated whether any of this occurred at any of the other 
basic training units in other military branches?
    What is hard for me to believe is that in the last 3 years 
at Lackland that there is something specific to that 
environment that didn't happen somewhere else at another time. 
So can you all speak to the scope of the investigation and 
whether there has been an indication of problems anywhere else.
    General Rice. I do know and I won't speak for the other 
Services, but I do know that each one of them at the direction 
of the Secretary of Defense has reviewed their Basic Military 
Training Equivalent Program, has reviewed the report that we 
have written on it, and has looked at the issues that we have 
found as they apply to their system. So, yes, I know that there 
has been a review done by the other Services. I cannot speak to 
what they found as a result of their review. I am sorry, but 
they have looked at it.
    General Welsh. Congressman, also, the Secretary of Defense 
very early in this investigative process asked General Rice to 
come forward and give him an update on what he was finding. And 
so Ed did that back in September. As a result of that initial 
update, the Secretary ordered an assessment of military 
training accessions programs for all the Services. That is 
ongoing. It will be delivered here shortly. I don't remember 
the exact delivery date, but it is in the next couple of 
months. And the intent is to make sure that anything that is 
learned from this is lessons are shared with the other 
Services.
    Part of the effort that Ed has initiated with the council 
he mentioned before is that that council will also be able to 
communicate with the other Services' accessions training 
programs and make those connections for routine interaction, 
not just after something ugly occurs. So we hope to share all 
of this with the other Services. They have been fully briefed 
on the results of this investigation, the findings and the 
recommendations on the way forward. All of that has been 
orchestrated through the Secretary of Defense's Sexual Assault 
Prevention Response Office.
    Mr. Castro. And then, finally, have you seen an effect on 
recruiting? And also what has been the effect on the morale of 
the soldiers at Lackland?
    General Rice. No impact that I can tell, and we have looked 
on recruiting. Fortunately, we are still able to attract the 
best and brightest young men and women that our Nation has to 
offer and we will continue to work on that.
    In terms of morale, this has been a significant emotional 
event for the people who are responsible for the training 
program at Lackland. I would say, in general, the reaction of 
other instructors and supervisors and leaders when this first 
started to break was one that sort of--their belief was this 
was a few bad apples. This does not represent, you know, any 
significant number of MTIs.
    I think today they understand that although it is 4 percent 
of the population, 4 percent is 32 MTIs, much larger number 
than anyone would have suspected existed.
    And so they have had to both recognize that this is, in 
fact, a real problem, they have had to recognize that they have 
a significant part to play in addressing the problem. I think 
they have embraced the changes, many of them which have run 
against the tradition of the way that we have done things in 
the past.
    But part of what we are doing--and we aren't there yet. You 
know, this is an ongoing process--is to work with our MTIs to 
have them understand that they have to take control of this 
issue. If we are going to be fully successful, they have to be 
part of the solution set. And this is an ongoing process, I 
think, of transformation that we are well on our way toward. 
But I am not in any way ready to declare victory.
    Mr. Castro. Thank you, General.
    I yield back.
    The Chairman. Thank you.
    Mr. Runyan.
    Mr. Runyan. Thank you, Chairman.
    Kind of getting to talking about culture, environment, 
compared the Air Force to other Services and you talk about the 
environment, how much of it has--have either of you ran the 
numbers or seen any numbers, how much of this, people that are 
comfortable in their situation and have those relationships and 
created a bad environment instead of having changeover and 
holding people accountable more often than not? General Rice? 
Is there--do you see where I am going with that?
    General Rice. Let me answer the question. If I don't answer 
it fully, please re-ask it.
    I agree that having people, especially in an environment 
that can be as challenging as basic military training for too 
long a period of time exposes them to, I think, issues and 
challenges that can be corrosive over time. And so we have to 
pay attention to how long we allow someone to serve in these 
positions. That is part of the solution set as we move forward. 
We are going to restrict the amount of time that you can serve 
as an instructor, for example, to 3 years. It used to be 4 
years. We are going to move that back to 3 years. And we are 
going to divide the duty day in half, such that you are not 
having contact during that entire duty day with trainees.
    It is a way of getting at this issue of exposure over time 
that we believe can be very corrosive, both in terms of an 
individual and the development of a culture.
    And culture sometimes is used in a negative way. Every 
group of people, whether it is 2 or 200 or 2,000, develops a 
culture. It is the way human beings react to each other and 
act. Most aspects of developing a culture are very positive; it 
is how we relate to each other, it is how we reinforce each 
other. And there are lots of elements of culture that I want to 
have as part of basic military training, both among trainees 
and trainers, so they can reinforce the positive elements of 
what they have to have as part of this environment.
    You have to be careful with a culture because it can over 
time become insular and develop negative elements that you have 
to be careful about. So part of the changes we have made are to 
ensure that, in addition to the people who are part of basic 
military training, who have come back for a second or a third 
assignment, which is important for us to have the right 
experience levels throughout the chain of command, we also have 
more people who are not part of the culture, if you will, in 
terms of having had previous experience.
    So it is why at the most senior enlisted levels we are 
bringing in chief master sergeants who have not been former 
military training instructors because it gives a fresh outside 
perspective that is important to, I think, inject into this 
group of people.
    Mr. Runyan. I think it kind of--and you did answer the 
question. Thank you very much.
    It plays to kind of how we are as a society. We are always 
saying ``if you see something, say something.''
    And when you are in a situation in a group, and you have 
personal relationships with your buddy, you will tend not to 
raise that question.
    And as far as what do you do, is there anything you can do 
on a disciplinary aspect of it to codify more stringent 
penalties to discourage behaviors as we are discussing?
    General Rice. Yes. So we have essentially a standard of 
behavior that we demand of our instructors. There, you know, 
has been disciplinary action taken because people knew of 
things that they didn't report in the right way. So I have a 
set of policies that require reporting of any maltreatment or 
maltraining. And if anyone sees something that is not reported, 
then they have to answer for that nonreporting as part of the 
process of accountability that we have for the standards that 
we have put in place. So there is a sanction. But I would say 
when this works properly, I mean, that is sort of a secondary 
way to address the problem.
    When we have it working in the way that we need it to work 
to be most effective, you know, the instructors and people 
within the system will be--it will be self-correcting in a way 
that I don't have to use the hammer in order to achieve the 
result.
    Again, this is a work in progress. I think we have to 
recognize that regardless of the screens that I use to bring 
people in, I am still going to have some people that I have to 
use a variety of tools on in order to achieve the result.
    Mr. Runyan. Yield back, Mr. Chairman.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, Generals, for being here. As you know, a few 
of us had an opportunity to go to Lackland. And I certainly 
want to commend them for opening up the opportunity for us to 
ask the questions that we needed to ask and to have access to a 
number of the MTIs, particularly who spoke with us.
    And their discussion with us was very compelling. And I 
wonder if you have or how you have engaged them particularly, 
because they had good background from which to speak about 
this, certainly on feeling ostracized, on this whole issue that 
we are talking about of culture, and what do we do in terms of 
bystanders who have information that is not shared. How was the 
information that they have used as you move forward? And did 
you actually talk to them? Because one of the things that we 
heard from them, which was really surprising, was that nobody 
had actually asked them.
    General Rice. Thank you, Congresswoman Davis. I appreciate 
the question.
    When Major General Woodward conducted her investigation, 
she actually had an extensive piece of her research work that 
involved talking to instructors. And several of her 
recommendations are based directly on that feedback that she 
got from instructors.
    Subsequent to that, the wing commander who is in place now 
and the group commander who is in place now, who is directly 
responsible for basic military training, has conducted a series 
of engagements with our instructors. The first, absolute first 
thing that the new wing commander did was sit down with all of 
the military training instructors and had a session with them 
to both let them know what his expectations were, importantly 
to convey to them clearly what the outside world was thinking 
about this, and to get feedback from them and to let them know 
that he was completely open to their assessment of what we need 
to do to move forward because he understands better than anyone 
that he cannot do this alone, that they have to do this with 
us.
    Mrs. Davis. I know you have spoken to the increased 
communication, and I think that is very important. One of the 
things we did here, and I am assuming this was relayed as well, 
is that having some informal--this sounds like a contrary--but 
informal mandatory meetings for everybody to have a chance to 
sit down and to talk about what they see. Because trying to get 
these issues of environment and climate and culture in 
questionnaires I think most people don't believe that you 
actually get there.
    And so having the opportunity to sit down, and if it is 
mandatory then everybody is doing it, and it doesn't mean that 
someone is going and telling on their peers, which is a really 
big problem that you have all discovered, I know.
    Is that--I didn't quite see that in the recommendations. 
And I am just wondering, where does that issue fall when it 
comes to the broader areas of recruiting and oversight and 
review that clearly have not all been instituted yet?
    General Rice. Ma'am, you are right that that was not a 
specific recommendation. But I wanted to underscore again the 
45 recommendations were just the starting point. So we have 
done a lot more since then and will continue to do more in the 
past. And I am open and welcoming any suggestions and 
recommendations on what else we can do. You and I have talked 
about this issue. I think it is an important one that we need 
to find the right way to do, the right way to address. And I 
want to do it in the right way. It gets back to this idea of 
feedback.
    Mrs. Davis. Yes. I guess my question would be, why not? Why 
something like that? Is it cost? Is it personnel? Why we 
wouldn't do that. And I guess just a follow-up question, in 
terms of the number of female MTIs and how has that increased 
and what are you doing about that?
    Sir, did you want to?
    General Welsh. Yes, I will answer your initial question if 
I could, Congresswoman, then I will turn back to Ed so he can 
tell you exactly where we stand in bringing in the female MTIs, 
increased numbers.
    First of all, on speaking to the MTIs at Lackland, actually 
a lot of people have spoken to them. The Secretary of the Air 
Force has visited with them back last fall. I have done the 
same thing. Ed, of course, and the leadership that he mentioned 
as a team there have all talked to them.
    The individuals you talked to might not have been there, 
but a lot of people have gone and talked to the MTIs to get 
their feedback.
    The number one thing I took away from the meetings with 
them was that those people, and the passions they have now for 
this problem, they feel exactly the way I do. And that is that 
our Air Force, our military, ought to be leading this effort 
for the country.
    We have a structure. We have the ability to command and 
control and educate and train and oversee, and we have the 
ability to punish. We have all the tools in place to be the 
role models for this. We owe you that. We owe the American 
people that.
    The Chairman. Gentlelady's time has expired. Could you 
please finish that answer for the record?
    [The information referred to can be found in the Appendix 
on page 191.]
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And as a graduate from Lackland Air Force Base, many years 
ago, really disturbing as we move across. But my big concern, 
having been a sheriff and prosecuted and investigated sexual 
assault cases, is the victimization, how we deal with those 
victims, and particularly as an organization how does the 
reporting process go? Sexual assault or sexual harassment don't 
always go hand in hand, but they are different in certain 
aspects. But the reporting process. And if I hear this 
correctly, the commander makes the decision whether or not it 
goes to a judicial process or it goes to a nonjudicial process. 
How do they make that decision?
    General Welsh. Sir, sexual harassment will sometimes be 
handled through other venues rather than the UCMJ. Very often 
it will be raised by a report to the Equal Opportunity Office 
on base or to the Inspector General on base. And it is passed 
to the Equal Opportunity Office for an investigation conducted 
by that office. There is a formal process it goes through. That 
process reports back to the commander. And then there is a 
decision made on what to do. Is it something you handle 
administratively? Is there something that actually escalates 
this to a level where you would deal with it under the UCMJ? 
You make the decision after the process is completed.
    A report of a sexual assault takes this to a different 
level. There is law enforcement. The OSI, the Office of Special 
Investigations is involved. And it immediately jumps into a 
process that is bound and judged through the UCMJ.
    Mr. Nugent. Do they have to follow a chain of command to 
report that?
    General Welsh. No, sir, they do not in either case. You can 
report directly to an Equal Opportunity Office, you can report 
directly to the Inspector General, you can go to your chain of 
command. You can report any number of ways.
    Clearly, reporting is part of the problem, though. Despite 
all of the options we attempt to offer, people do not come 
forward and report routinely on either sexual assault or sexual 
harassment. That is one of the major issues we have to get to.
    Mr. Nugent. And that is the climate issue in regards to how 
do you get folks to come forward, and particularly----
    General Welsh. Yes, sir.
    Mr. Nugent [continuing]. In a military application because 
they all want to cooperate and graduate. They want to be able 
to move up through the ranks, and they are fearful that an 
allegation will be used against them versus a fair and 
judicious application as it relates to the offender.
    And I guess so what are you doing specifically for the 
victims to encourage them to come forward without the worry of, 
you know, retaliation?
    General Rice. We start this when they are recruits. So 
their recruiter provides them with a one-on-one briefing about 
what is and what isn't allowed in terms of behavior when they 
get to basic military training. That briefing is repeated once 
they get to basic military training within the first days that 
they arrive. And then we repeat it again in technical training 
in terms of expectations. It is not a silver bullet, but it is 
one of the means that we try to over time set the expectation 
of what very brand new people to our organization should expect 
and what is normal behavior and what is abnormal behavior and 
then try over time through those engagements in the right way--
they have to be done in the right way--to develop a level of 
trust, and the person that is conveying that information and in 
the system and how it will react.
    I think a second important way we are addressing this in 
basic training is to provide other avenues and more of those 
other avenues for trainees to report. So we have added more 
sexual assault response coordinators who will be out and about 
in the community and will have more opportunity to have 
engagements with trainees. We have added more chaplains, again, 
someone who we hope that they will feel may be more comfortable 
talking to in one-on-one sessions. And more leadership in 
general will be part of the equation.
    Again, none of these are, you know, one-point solutions, 
but part of a total package that we think heads us in the right 
direction.
    Mr. Nugent. One last question. Your victim advocates that 
you have and your investigators, do they work hand in hand in 
regards to trying to help the victim move forward in regards to 
dealing with the actual allegation?
    General Welsh. The special victims counsel's job is to 
advise the victim to make the process as simple, as 
understandable, and as painless as possible for the victim and 
to streamline the activity associated with the UCMJ process to 
include up through a court martial activity, so they are 
removed from the friction and the frustration and the lack of 
understanding and the poor communication that often makes their 
situation even worse.
    Mr. Nugent. Is there mental health counseling----
    The Chairman. Gentleman's time has expired.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you, Generals, for your participation.
    I have a letter dated November 16th to General Rice from me 
that I would like to submit for the record, Mr. Chairman.
    The Chairman. Without objection, so ordered. What year was 
that?
    Ms. Speier. Last year.
    The Chairman. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 188.]
    Ms. Speier. General Welsh, we all had a meeting about this 
document. We talked about 17,000 hours, we talked about 32 
staff. General Rice referenced 7,700 interviews. And not one of 
the victims, not one of the 50-plus victims at Lackland was 
interviewed.
    Forty-six recommendations came out. But how can any of 
those recommendations be complete without first having talked 
to at least some of the victims?
    Now, the letter I sent to General Rice dated in November 
sought to have those victims interviewed. I have yet to get a 
response from General Rice.
    General Welsh. I don't think the effort can be complete 
until we have the chance to talk to the victims.
    Ms. Speier. All right. Let me go on.
    The trainees that we met with, we had lunch with them. They 
were 17, 18, 19 years of age. They were young, they were naive, 
they were earnest. And as I sat there having lunch with them at 
Lackland, I thought to myself, oh, my God, these are the age of 
my daughter. All of these trainees are the ages of my daughter. 
And my daughter would no more have the ability to say ``No'' to 
a military training instructor, who you are taught is the law, 
you do everything that training instructor tells you.
    Now, there has been a lot of talk here today about all the 
things that are happening. But what happened was that military 
training instructors directed these trainees to go to supply 
closets and to the laundry room, where they were then sexually 
assaulted and raped. We have two instructors that admitted to 
having had sex with ten of their trainees, each. And these 
instructors were married.
    Now, in the end, do you agree or not agree that consent 
should not be part of this quotient? General Rice said that 
some of these were willingly engaged in sex with their MTI. As 
I understand it, the MTI is never supposed to be alone with a 
trainee in a room. Never alone. So can a trainee willingly have 
sex with her instructor? Your answer.
    General Welsh. I would never be able to look you in the eye 
and tell you that no trainee of any age--we have trainees who 
are 30, 32, 34 years old who go through this program--would 
ever be able to offer their personal consent in a situation 
like that. I don't know that, I can't judge that. And I think 
that is a little problematic under law.
    Let me tell you what I do agree with, and I think you 
probably agree with this. An individual who is serving as a 
military training instructor who has a relationship like this 
with a trainee has no place in our Air Force. And there should 
be a presumptive sanction under some mechanism to discharge 
him.
    Ms. Speier. So I am introducing a bill today that will 
basically say no longer can a consensual relationship between a 
training instructor and a trainee be used as a defense for the 
acts of the training instructor. Would you support that 
legislation?
    General Welsh. Ma'am, I would have to ask my legal experts 
to advise me on the technicalities of that legislation. I will 
support you in an effort to make sure someone who has that kind 
of a relationship in an Air Force training program, that BMT, 
it is just unacceptable----
    Ms. Speier. And they are kicked out of the military.
    General Welsh. And that they are out of the military.
    Ms. Speier. Thank you.
    A military expert, Professor Heigl from Yale, recently said 
that the UCMJ is something that would be recognized by George 
VIII, that they are very similar to what is going on in the 
U.K.
    Now, the United Kingdom had a scandal like this in 2006. 
And they created a separate unit, a separate unit that was 
staffed with experts in investigations and prosecutions within 
the military to handle these cases, so that the decision was 
not being made by the unit commander.
    That was in 2006. In 2007, they found that good order and 
discipline stayed intact, that in fact the unit commanders were 
relieved of not having to handle these cases anymore.
    I would like to encourage you to speak with your 
counterparts in the U.K. to see how their system works and see 
if we wouldn't be better served moving into a system like that.
    I yield back.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chair.
    I am encouraged to hear you say that there is a training 
session for the new recruits before they actually go to BMT. I 
think that that is very helpful. I guess my question is how do 
we get the recruits to fully understand or believe that 
reporting bad behavior will be supported by the leadership and 
will not harm them, that they can develop that trust and know 
that that is the right thing to do and be more confident in 
their reporting. What might your suggestions be on that?
    General Rice. Very challenging. I have been through basic 
military training as well, not as an enlisted person. But at 
the Air Force Academy we do the same thing. So I have been in 
that position and understand fully what these trainees think 
about this environment and how challenging it would be, you 
know, looking back on my time and my experience to talk about 
things like this. Sometimes it is very challenging.
    So as much as we want people to do certain things, I think 
we have to deal with the reality of the environment that they 
are in and try to think about it from their perspective. Part 
of this has to do with getting more feedback from trainees and 
looking at those barriers.
    I think the most important element for the decision we can 
make in this regard, though, has to do with trust. At the end 
of the day if people don't trust, either a person or the 
institution, there isn't anything that we are going to do in 
terms of training that is going to have them make that decision 
to take what they perceive as personal risk.
    So as we train our instructors in how to relate to the 
trainees, how we train other people within this environment to 
relate to trainees, who we try to ensure that they have that 
level of trust and confidence in within the system is a part of 
the work that we are undertaking.
    I don't have the answer today. But I know that is a place 
that I have got to get better at if I am going to be more 
successful in the future. And I think we can do a lot better. 
But I am not ready to tell you today that I have figured that 
out.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    A person who is training under a trainer and has a 
consensual, some might say sexual relationship, sexual 
intercourse, in other words, sexual intercourse with the boss, 
the boss might think is consensual, but what is going through 
the mind of the trainee is that I need to do this in order to 
get through training successfully. So it is a duress, it is a 
mental type of situation. It may not be forcible physically, 
but forcible mentally. And that is why if there is not one now 
there should be a crime that makes it a per se violation to 
have sexual intercourse, be it forced--be it consensual or not 
between an instructor and a trainee.
    And I think that that is probably something that Ms. 
Tsongas has dealt with in her bill, which I fully support.
    Now, a different situation between, say, a former trainer 
or a trainer who formerly trained someone who has made it 
through training and now that person is out of the dominion and 
control of the trainer, then there could be a consensual sexual 
relationship that does not equate to rape. So it might be maybe 
unprofessional or something like that. So I am not saying it is 
at all times noncriminal. But let's just say that a former 
trainer and a former trainee, a former trainer and a person 
that he trained, he or she trained at a time previously, they 
are in a sexual relationship but then the woman or the man, the 
victim might say, ``No, I don't want to do this today.'' And 
then it is forced on them. Okay. So that is a classic rape 
allegation. Classic allegation of rape or someone just took 
authority and just imposed themselves on a weaker individual 
physically. Rape.
    I have looked at the guidelines that--the list of 
commander-directed investigation recommendations, and I see 
nothing about training of military police in the gathering of 
physical evidence that would support the accused--excuse me, 
that would support the accuser in making the allegation of a 
forcible rape. Because you only have one's word against the 
other, no other witnesses. So you got to prove the case, prove 
it by some physical evidence. A rape kit is what it is 
generally called.
    Why is it that we don't make provisions for these types of 
cases, which I think are pretty typical, in addition to the 
other sexual assault cases, harassment, nonphysical activities? 
Why is it that we are not dealing with this issue of rape and 
forcible sodomy and things like that in terms of police 
investigation and prosecutorial ability to prosecute 
effectively?
    General Welsh. Congressman, we are. We have trained 24 Air 
Force officers, special investigations, special victims 
investigators to this point. We have just started a new class 
model on the Army's CID [Criminal Investigation Command] class 
that was advised by outside experts to put together a 
curriculum to focus on that type of investigation. That first 
class just completed this week. We had some outside experts in 
to give us some feedback that was objective. We will run 
classes through that course routinely. We sent 50 Air Force 
judge advocate generals and OSI agents through the Army CID 
course before starting this one. We will continue to further 
train our investigators in the skills required to better 
investigate these actions.
    My opinion is that part of the reason we have trouble with 
people sticking with an investigation and a prosecution, victim 
sticking with it, because the way they are handling the 
investigative cycle is so critical to them being willing to 
stay with their commitment to actually identifying and 
prosecuting an assailant.
    The Chairman. Gentleman's time expired.
    Ms. Walorski.
    Ms. Walorski. Thank you, Mr. Chairman.
    I appreciate you being here. I am new, and I am shocked, 
and I apologize for not being here this morning.
    But I just want to go back to the point from General Welsh. 
I just want to make sure I have, talking about sexual assault 
in the Air Force on page 4. And it says, ``A 2010 Gallup survey 
revealed that since joining the Air Force, 19 percent of women 
and 2 percent of men experienced some degree of sexual assault. 
For 3.4 percent of women and 0.5 percent of men, those assaults 
had occurred in the 12 months preceding the survey.
    Of those, only about 17 percent of those women and 6 
percent of the men reported the incident.''
    And my question is, and I apologize, I am brand new. And 
this is my first hearing. I don't have the benefit of all of 
our veterans in the room on the committee. If I am a woman in 
the military and I am sexually assaulted, how do I report that? 
Do I pick up a phone? Is there a 911 in the military? How do I 
report that? Do I call from my cell phone? What generates the 
report?
    General Welsh. Any number of things. There are hotlines at 
every base in the military. You can tell someone in your chain 
of command. Everyone knows that you can go to the Inspector 
General, you can go to the security forces, you can go to the 
base hospital or clinic and ask for help there.
    Anywhere in that network is connected to the reporting 
mechanisms that then starts the activity moving forward. The 
problem we have is not that nobody--most people don't know who 
to talk to or where they could talk to, it is that they don't 
feel comfortable reporting. The Congressman mentioned sometimes 
they are concerned about them getting in trouble or somebody 
holding them accountable for some reason for reporting. Some of 
them are concerned about their family finding out, their 
friends finding out, their spouse finding out.
    Some of them are embarrassed. Some of them feel guilty 
about the incident. All of these things come together to create 
a problem where people don't feel comfortable stepping forward.
    It is something that we have to just work constantly. I 
don't have an easy answer for this one, Congresswoman. And you 
know, new on the job or old, you are going to be shocked every 
time you hear this, just like I am.
    Ms. Walorski. Well, do we have in the military--is there 
something specifically for this, because this is crime?
    General Welsh. Yes, ma'am. We have----
    Ms. Walorski. Do we have whistleblower protection in the 
military? Am I protected and know that I will know that I know, 
say, as a female that if I am the victim of a crime in this 
military that I know I am protected and is there some--and I am 
not familiar with the hierarchy in the military to understand, 
but am I protected if I go and say, ``I am a victim of a 
crime,'' do we have whistleblower protection?
    General Welsh. Maybe. There is no hard, firm law that says 
you are protected if you come forward and report something and 
everybody is going to make sure that you never suffer a 
consequence for any action you took.
    I think in the past there have been many more incidents 
where people were held accountable for activity that was 
involved in or around an event where they became a victim. That 
is unacceptable. You heard General Rice mention in this 
particular case none of the victims have been held accountable, 
made to feel like they were guilty of anything. That is the way 
it has to be going forward.
    We have a sexual assault response coordinator at every 
organization. They are trained and certified to know how to 
handle these situations. As soon as we find out through any 
part of this reporting chain that we have a victim, the victim 
is contacted by the sexual assault response coordinator and all 
these things that we can help provide are available to them. 
Not just law enforcement or investigative stuff. That is the 
last thing we want to worry about at that first contact. It is 
the personal care, the counseling, the healthcare, the forensic 
exam if required.
    Ms. Walorski. I appreciate it. So if when I call and report 
that incident, am I matched with--is it gender-to-gender 
reports? Am I reporting--if I am raped, am I reporting to a 
women?
    General Welsh. In every case you would not be. Anecdotally, 
the majority of our SARCs are women. But, anecdotally, no, that 
is not the case everywhere.
    Ms. Walorski. And what is the ratio--I think somebody asked 
earlier but I am not sure, I just simply don't know--what is 
the ratio of basic military instructors--and I don't know all 
your acronyms, I apologize--but if you are a basic military 
instructor, what is the chance--how many women versus men, 
percentage-wise, do we have in the Air Force?
    General Rice. It is about 11 percent women. We are moving 
to 25 percent.
    General Welsh. Air Force-wide, about 19 percent women.
    Ms. Walorski. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman,
    General Rice, would you agree with me that the command 
chiefs with the commander set the command climate of a unit?
    General Rice. I think command chiefs are an integral part 
of that. But I believe it is fundamentally the commander's 
responsibility to maintain the command climate within a unit.
    Mr. Enyart. And the command chief relays, is the interface 
between enlisted folks, the NCOs, and the commander. Is that 
person not?
    General Rice. Certainly, yes. A critical link between the 
commander and the airmen within the unit.
    Mr. Enyart. General Rice, I would like to know how many 
female command chiefs do you have at Lackland Air Force Base 
and how many do you have in the recruiting command?
    General Rice. I can't give you an exact number. I would 
like to take that for the record, please.
    Mr. Enyart. I would like to have that information back. 
Thank you.
    [The information referred to can be found in the Appendix 
on page 191.]
    Mr. Enyart. General Rice, can you tell me what is the 
accessibility that a female basic military trainee has to 
reaching out to a female command chief?
    General Rice. No, I can't give you an exact answer to that 
question. I would answer it this way: We have a number of 
females who are in the instructor or staff or supervisory or 
command positions. We are moving to a place where we have more 
females in those positions. I don't select commanders based on 
their gender, I don't select command chiefs based on their 
gender. I do believe at the military training instructor level 
that the team that is responsible for a flight of 50 trainees 
should include one female. But beyond that we have not made 
another determination to make assignments of leadership 
positions based on gender.
    Mr. Enyart. Have you in any way, General Rice, empowered 
your command chiefs to deal with this problem that seems to be 
happening--or seems to have been happening; I am sure that it 
is not happening now--but have you empowered your command 
chiefs to act with this? And, if so, how?
    General Rice. No. So at my level I have not taken any 
direct action to specifically empower command chiefs other than 
making it mandatory that the rank of the command chief is no 
longer a Senior Master Sergeant, but a Chief Master Sergeant, 
which is not a trivial matter. I believe you understand, based 
on your background, the significance of that.
    But, fundamentally, I have to depend on a commander to use 
the resources that I have provided to him or her to maintain a 
proper command environment. And it is up to that commander to 
use those resources, whether it is a first sergeant, whether it 
is a command chief, whether it is an operations officer, 
whether it is a supervisor or anybody else, to use that 
combination of resources in a unique way, because every 
commander is different, to maintain good order and discipline 
and the proper command environment. And I think it is 
problematic if I start to dictate how they put that team of 
people together.
    Mr. Enyart. I would agree with you that it may well be 
problematic for you to do that. But I think you have a problem, 
don't you, that needs to be dealt with. I would suggest that 
having dealt with those kind of problems in my previous career, 
that by setting the proper command climates you can resolve 
those problems. And an inherent way of doing that is empowering 
and relying our command chiefs, and by that I am talking about 
the E9s, the chief master sergeants, to aid the commander in 
ensuring that the NCOs, and every one of those TIs [training 
instructor] is an NCO, those NCOs fully understand the 
commander's intent.
    I will yield the balance of my time.
    The Chairman. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chair.
    Thank you both for being here and for your service. We have 
heard a lot of discussion about the climate and what is being 
done to encourage individual victims to report without fear of 
retribution. And, General Rice, you talked about much of the 
training that goes on to try to impart the knowledge of how to 
report and what to report.
    I can tell you that as a military commander I know well 
those training programs, both basic and recurring.
    And the problem is, whether it is EO [equal opportunity], 
or consideration of others, or prevention of sexual harassment, 
they seem to become stagnant PowerPoints where people are 
sitting in a classroom with eyes glazed over. Now, these 
programs have been going on for years. Yet these incidents have 
occurred even while training programs have been put forward.
    How do you judge the effectiveness of those training 
programs that are supposed to be providing those initial entry 
service members or those that are on the front lines going 
through their annual recurrent trainings on these topics to 
make sure that they understand? Because it seems that the 
training that we did--it is not the Air Force, I am an Army 
guy--the training we do across the Services isn't resonating. I 
mean, these incidents continue despite this ongoing initial 
entry and recurrent training. So how are we going to assess the 
training programs we have out there to try to stem the tide of 
these sexual assaults and associated sexual incidents?
    General Welsh. Fantastic question, sir, thank you, exactly 
the question we are trying to answer right now.
    I mentioned before the volumes of training and education 
programs that we have had in place for years and we continue to 
keep in place, and we have added more. Every time we have an 
incident, we add more. All the Services do this. The question 
is which ones are having an impact. Expand those, emphasize 
those; get rid of the rest of them and quit wasting resources 
on them, wasting people's time that could be better spent in a 
different way attacking this problem.
    We have talked to experts who are advising us on this 
topic. The one thing they told me got my attention, because I 
am more interested in seeing if it works quickly and then 
dumping it if we can't tell that it does and trying something 
else, the experts said, you have got to be a little bit careful 
about that. Because some of these things you won't know the 
impact until you give them time to work. Some of them are 
institutional education changes and it takes a while. So the 
trickiest part for us right now is figuring out which ones do 
we stick with, and the ones we stick with we have to refresh, 
we have to modernize, we have to make them applicable to our 
young workforce, we have to put scenarios on YouTube, we have 
to do things, you know, TED [Technology, Entertainment and 
Design] Talks. We have to do the kinds of things that will 
attract them. Generally, that is scenario-based training and 
education. It is not PowerPoint, go home and look at it on the 
computer. That is not going to help.
    And so that is the type of effort we are focused on right 
now. How do we energize this training and bring it down to a 
personal level, not sitting in the back of the room with 500 of 
your closest friends sleeping through the latest sexual assault 
awareness training.
    Dr. Heck. I am encouraged by that approach. And I hope it 
works and I hope that you share it with our sister Services. I 
can tell you far too often we have become more about training 
to time than to standard and it is about sitting a classroom 
and watching the slides go by for 30 minutes regardless of the 
information that is being absorbed by the person sitting in the 
chair.
    So I applaud your efforts in trying to do some 
comprehensive assessment of what does work and making sure we 
push that out across the Services.
    Thank you. I yield back, Mr. Chair.
    The Chairman. Gentleman yields back.
    Mrs. Noem.
    Mrs. Noem. Thank you, Mr. Chairman. I appreciate it.
    General Welsh, I have a question I believe should be 
directed towards you.
    How are the victims that were involved in this 
investigation at Lackland Air Force Base currently being cared 
for by the United States Air Force?
    General Welsh. Thank you, ma'am. This is maybe the most 
important question of the day.
    They are being cared for as well as they possibly can. 
Fifty-nine victims all were offered whatever level of support 
we could provide them. Fifty-seven of them accepted some level 
of assistance, whether it was healthcare, counseling, legal 
assistance, whatever it might be.
    General Rice can give you more of the details, the types of 
things they accepted. I am not fully aware of that.
    We have tried to do everything we can with them. We offered 
them the new special victims counsel. Although it is not in 
place yet, we did offer some of them that in advance of the 
initial capability date because we knew there were trials 
coming up and wanted to them through that. Some of them took 
advantage of that.
    Anything that we can think to do to help them, sadly, after 
the fact we are trying to do.
    Mrs. Noem. Thank you. General Rice, could you shed some 
light on why some of these victims chose not to exercise every 
opportunity to get care and counseling from the United States 
Air Force?
    General Rice. I think there are a variety of reasons, as I 
have gotten feedback, it goes from some of them do not consider 
themselves victims. And so they have not wanted to have 
support. Others have considered the level of victimization, if 
you will, such that they don't require support. And others have 
made more full use of the support mechanisms that we have. So 
each one of these is at a very individual case, an individual 
decision. I am confident that we have made a good-faith effort 
to offer the support and to conduct the investigations in a way 
that we have tried not to revictimize the victims. We have 
tried to honor their requests, if they have said, you know, 
please, I just want to sort of move on here.
    I do think, and it is something that I have talked to my 
team about, just as we have found out that oftentimes the 
initial answer to, did something happen to you is no, that if 
we reapproach people in a different way over time, that we can 
get them to develop a sufficient level of trust that they will 
be more accurate with us; that because a victim said no, I 
don't need any help, that we should go back at some appropriate 
time interval and reask and reoffer that assistance, because 
time does change people's perceptions of this. So we need to 
find the right way and time to do that, but I have that on my 
list of things to do here.
    Mrs. Noem. We have had a lot of discussion here today about 
lack of reporting, unwillingness to report incidents as they 
happen, and I think that right now every single airman is 
watching this situation, and watching our victims to see how 
they are being treated, and making decisions on whether to 
future report, to report on incidents that could be going on 
right now, or could go on in the future, that you are building 
a reputation right now on how you respond to these victims, and 
it will determine your success on getting more accountability, 
on getting more reporting of airmen being willing to come 
forward and talk about what may or may not be happening.
    So just know that as we work our way through this painful 
process and try to bring a resolution and improvement to it, 
that there are a lot of eyes on you, and there are a lot of 
eyes on how we are caring for the current victims that we have, 
and that we have an opportunity here to really do the best that 
we can to take care of them. I have looked at some of these 
recommendations that have come forward and I just have a 
specific question about one or two of them, depending on how 
much time I have.
    One of the recommendations was A19 which says: Shorten the 
MTI tour lengths to a maximum of 3 years, and do not allow 
follow-on special duty assignments. Were the MTIs that were 
perpetuating these crimes or assaults against the victims there 
for longer periods of time? Did they have a longer service rate 
in their position that they held? Is that why this 
recommendation has been accepted?
    General Rice. We did have some that were there for longer 
than 3 or 4 years. Typically, you won't serve as a military 
training instructor for that long. You will move on to a 
supervisory position, so that recommendation is less about 
serving as a military training instructor, than it is 
consistent participation in the whole process. So the idea is 
you serve one and then you move on to something else.
    Mrs. Noem. My concern was that I read this, and I assumed 
that some of the perpetuators potentially were in these 
positions too long, and that maybe the climate within that 
position as they were there for a long period of time, 
developed an attitude or an environment where they felt as 
though it was more acceptable the longer they were there. I 
guess that is the answer that I am looking for is there is no 
consistency on length of time in that position from the 
perpetuators?
    General Rice. No.
    Mrs. Noem. Okay. Thank you for that. I appreciate that. I 
will yield back, chairman.
    The Chairman. Gentlemen, that concludes the questions we 
have for the first panel. Thank you very much for the work you 
are doing. And we will excuse you and move to the second panel. 
Thank you.
    The Chairman. Can we please clear the witness table? We 
need to get the next panel up, thank you.
    We have now--what timing. This is the call for our last 
series of votes for the day. But let's try to get as far as we 
can before we leave. We have on our second panel, David Lisak.
    Mr. Lisak. Lisak.
    The Chairman. Lisak, forensic consultant; Chief Master 
Sergeant Cindy McNally, United States Air Force, retired, with 
the Service Women's Action Network; and Technical Sergeant 
Jennifer Norris, U.S. Air Force, retired, from Protect Our 
Defenders. Mr. Lisak.

    STATEMENT OF DR. DAVID LISAK, PH.D., FORENSIC CONSULTANT

    Dr. Lisak. Thank you, Mr. Chairman, Ranking Member Smith, 
and thank you to the committee for giving me this opportunity 
to speak to you this morning. I am a clinical psychologist, a 
researcher, and a forensic consultant. For the past 25 years, I 
have studied rapists and I have treated and evaluated men and 
women who suffered sexual violence.
    For the past 10 years, I have worked extensively with the 
four Services of the U.S. military and simultaneously in the 
civilian sector, I have worked with dozens of universities 
across the United States, and numerous law enforcement agencies 
and with State and local prosecutors. My extensive contact with 
both military and civilian institutions across the country, 
provides me with a perspective on the problem of sexual 
violence that I would like to articulate to this committee.
    Sexual violence afflicts all nations and all societies. 
Societies are not distinguished by whether or not they have a 
problem of sexual violence, but rather by whether or not they 
actively and forthrightly confront the problem. The same is 
true for institutions within those societies. It is perhaps a 
little ironic, given the testimony that you have been hearing 
today, but in almost every respect, the U.S. military is doing 
more to confront sexual violence than any other institution in 
the United States.
    Nevertheless, despite their efforts, there are serious 
problems within the Services that have either yet to be 
addressed or yet to be fully resolved. It will require many, 
many years of sustained effort and commitment to resolve these 
problems, and therefore, many, many years of sustained scrutiny 
by this committee, by Congress more generally, and by advocacy 
groups, some of which are represented here today.
    However, the scrutiny and criticism of the military very 
often implies that its problems and shortcomings are somehow 
unique. In my opinion, this is not only grossly inaccurate, it 
also is a serious disservice to our country because it lets 
other institutions in this country off the hook. And in so 
doing, it puts the men and women in those institutions and 
communities at far greater risk of sexual violence.
    Specifically, our universities have not confronted their 
problems of sexual violence with anything like the commitment 
shown in the Services. There are a few exceptions, however, in 
no university have I ever seen the type of commitment from 
leadership, the comprehensive prevention efforts, the sustained 
efforts at tackling the very challenging problems that I have 
witnessed in the Services.
    Perhaps the most scathing criticism that the military has 
received has been focused on the shortcomings in prosecuting 
cases of sexual violence. Again, I believe that this criticism 
is necessary. However, our country would be well served if the 
criticism of the military's prosecution record was placed in 
the context of the civilian prosecution of sexual violence. 
With rare exceptions, again, there are enormous problems with 
the prosecution of nonstranger sexual assaults in civilian 
jurisdictions.
    Nonstranger cases represent the vast majority of all sexual 
assaults. They are challenging cases to investigate and 
prosecute, and very few civilian jurisdictions have made the 
necessary efforts to train their staffs to competently and 
effectively take on these cases. As a result, many nonstranger 
cases are inadequately investigated and never even taken to a 
courtroom. Many local prosecutors fail to prosecute the types 
of nonstranger cases that military prosecutors are now 
increasingly taking to court. The Services are making efforts, 
and you heard reference to some of these this morning, to 
increase the effectiveness of their criminal justice response 
to sexual violence.
    As just one example, and I think this was mentioned 
already, the Army has developed a 2-week course to train 
investigators in state-of-the-art techniques for investigating 
nonstranger sexual assault cases and 440 investigators are now 
being trained each year. This is an example of one of the much-
needed improvements that needs to take case place in the 
military's criminal justice response to sexual assault, but it 
will take time for these improvements to take hold and be felt.
    And there is much, much more work to be done. Improved 
training for investigators and military prosecutors must 
continue to evolve and it must be sustained. The Services must 
confront the problem of junior litigators handling complex 
sexual assault cases far too early in their professional 
development. Unhelpful biases and attitudes are still present 
among some investigators, prosecutors, and commanders, and 
these must be addressed through a process of culture change 
that I think has been already stated will be a permanent 
process.
    I hope that my testimony will not be taken here either as 
an apology for the military's handling of sexual assault, or as 
yet another criticism of its efforts. Based on my experience, 
working with the Services, both very good and very bad things 
are still happening. This is the reality in an institution that 
is undergoing significant and meaningful change, and I suspect 
it will be a reality for some years to come.
    It is impossible to average these good and bad things. They 
are simply both true. If the Services sustain their efforts, if 
Congress continues to provide clear-eyed scrutiny, and 
crucially, if Congress provides the resources that the Services 
need to sustain their efforts, I believe that the United States 
military will lead the rest of the country in demonstrating 
what it means to confront sexual violence honestly and with 
sustained commitment. Thank you very much.
    The Chairman. Thank you.
    [The prepared statement of Dr. Lisak can be found in the 
Appendix on page 74.]
    The Chairman. Thank you. Sergeant McNally.

STATEMENT OF CMSGT CINDY MCNALLY, USAF (RET.), SERVICE WOMEN'S 
                         ACTION NETWORK

    Sergeant McNally. Good afternoon, chairman, and thank you 
members of the committee. I sit before you today having 
experienced sexual assault in the Air Force from multiple 
perspectives; first, as a survivor of sexual assault when I was 
a young airman; second, as an enlisted troop who has spent her 
entire career as an aircraft maintainer; and third, as a 
retired Chief Master Sergeant who has supervised 1,500 enlisted 
troops as a maintenance group superintendent.
    I have had direct dealings with all of the personnel issues 
that come with supervising people in today's Air Force, and I 
will be sharing that perspective with you today.
    I enlisted in the Air Force in 1975 and was assigned to a 
WAF squadron, a Women in the Air Force squadron at Lackland Air 
Force Base. At that time, women trainees were segregated from 
men both physically and in our course curriculum. Following 
basic training, I attended technical training at Chanute Air 
Force Base where I began my integration into the Air Force. It 
was there that I was sexually assaulted by two of my 
instructors. I reported the incident, believing that my leaders 
would handle it, and that didn't happen. I knew then that I 
would never, ever report another sexual assault.
    In fact, a year later at my first assignment, I was 
sexually assaulted again. I did not report it, nor did I ever 
discuss either of these two incidences until after I retired 28 
years later and was being treated for PTSD [post-traumatic 
stress disorder].
    While many things have changed in the Air Force since I 
enlisted, the trauma of sexual assault has not changed. It 
feels like someone has reached into you, and sucked the soul 
right out of you. It is traumatic, and it is ugly. And for 
those of us who have survived it, we do so because of our 
strength and our will to overcome what could otherwise be a 
crippling episode in our lives.
    I remain in the Air Force, proud of my service, however. 
The reason I served far outweighed any single incident in my 
life. This was my choice. I also served alongside the Nation's 
finest in an Air Force where honor, integrity, and service 
before self are a way of life. Our job as enlisted leaders is 
to find the standard and make everyone absolutely understand 
that we have no problem removing anybody in a blink of an eye 
if they cross that standard. And maybe that is where General 
Rice and I somewhat disagree. I believe the enlisted leaders 
are one of the most important people in the military to stop 
this epidemic.
    To me, the sexual assault cases at Lackland demonstrate 
what happens when leadership fails. Basic training is where our 
sons and daughters are at their very vulnerable. The power that 
military training instructors, or TIs, have over airmen is 
perceived as absolute. Turning young men and women from all 
over our country into airmen is a transformational process 
where the TI represents the sole success of that 
transformation. Turning to female leaders when assaults have 
occurred is not always an answer. The true yardstick for an 
effective leader has nothing to do with their gender. I have 
worked with many men who have set a stringent work environment 
where all airmen are free from harassment and a threatening 
workplace. The NCOs in the chain of command have an overarching 
duty to take care of their troops. Doing what is right is 
genderless.
    I have followed closely the recommended actions in the 
midst of Lackland's disgrace, and I discussed some of these 
with SWAN [Service Women's Action Network], and I have had the 
privilege of talking to General Woodward. And I applaud her for 
her efforts in looking into these issues. I believe the 
following steps that are being taken will have a positive 
effect on the training environment at Lackland. I agree we 
should increase the number of female MTIs to at least the 
percentage that they are in the Air Force. All basic training 
students should be exposed to both male and female NCOs. This 
is, after all, who will be leading them.
    Increasing instructor-to-student ratio is an absolute must. 
I was shocked to find out that the TI-to-student ratio was 
roughly the same as when I went through basic training 35 years 
ago. A reasonable student-to-instructor ratio is education 101.
    I also agree with the requirement to raise the rank of 
MTIs. Technical Sergeants and Master Sergeants are seasoned 
leaders and have a good deal of experience in deterring, 
identifying, and taking action. However, a nonvoluntary TI 
assignment didn't work before, and it won't work now. I have 
had troops who viewed TI duty as the death knell for their 
career. That needs to change to attract the type of people 
suited to train our next generation of leaders. Incentives to 
attract the best of the best is the answer, not nonvoluntary 
duty assignments.
    Additionally, I do not believe women should be segregated. 
We train as we fight, one team. Segregation in training did 
more harm than good in attempts to integrate us into the Air 
Force. We want to be viewed as airmen first and you cannot do 
that coming from a segregated unit. Our own history with racial 
integration should tell us that. For larger solutions, we need 
to look at integrating women completely into the Armed Forces. 
Remove the combat exclusion policy. Then we will be a fully 
integrated force. Being able to do the job should be the 
standard, not whether you are male or female.
    I believe that as leaders we took our eye off the ball. We 
enabled a climate where our troops became vulnerable, and we 
can train and train, but in the end, it is about leadership. We 
draw the line on what is acceptable behavior, define it, and 
enforce it. I don't believe we can legislate leadership, but we 
can certainly have you hold our leaders responsible and legally 
liable for the welfare of their troops. That is an absolute 
must.
    In the maintenance career field where all our leaders are 
passionate about doing what is right to protect our pilots 
while they fly, our leaders need to feel as passionate about 
protecting our troops as they do the flying mission. You cannot 
minimize risks to zero, but leaders can and better make sure 
they are there to make the right decision and do the right 
thing. Our troops demand nothing less. Thank you, Mr. Chairman.
    [The prepared statement of Sergeant McNally can be found in 
the Appendix on page 139.]
    The Chairman. The vote is just about at an end, and I have 
to recess the committee at this time to give everybody an 
opportunity to vote. We will vote, and return. It will be, it 
looks like, at least a half-hour. Thank you.
    [Recess.]
    Dr. Heck. [Presiding.] We will call the meeting of the 
House Armed Services Committee back to order. Thank you for 
your understanding as we ran across to cast our votes. I am 
sure other Members will be coming back shortly.
    At this time we would like to recognize Technical Sergeant 
Norris for her testimony.

  STATEMENT OF TSGT JENNIFER NORRIS, USAF (RET.), PROTECT OUR 
                           DEFENDERS

    Sergeant Norris. Thank you for having me.
    I am Jennifer Norris. I am an Air Force veteran, wife to my 
dear husband Lee, national advocate for the Military Rape 
Crisis Center, and Protect Our Defenders Advocacy board member.
    Protect Our Defenders is a place for survivors to build 
community, amplify our voices, support one another, and take 
collective action. It is with heavy heart that I appear here. I 
speak not only for myself, but for the thousands of survivors 
whose lives were forever altered by this epidemic, a culture 
that punishes the victim in a broken justice system. I want to 
recognize the service members who have not survived due to 
murder or suicide, and their families who are still waiting for 
answers.
    Last August I stood outside these doors with fellow 
veterans and survivors. We delivered a petition asking you to 
open an investigation into the Lackland scandal and its causes. 
There were 30 victims. Now, there are at least 59. Since 
August, the DOD estimates roughly 10,000 more men and women in 
uniform have been assaulted. We hope this hearing is the start 
of fundamental reform to remove bias, conflict of interest, and 
opportunity for abusive authority that precludes justice.
    We ask that this be the first in a series of hearings to 
fully explore the reasons Lackland and similar abuses are 
occurring and what must be done to prevent them.
    As the San Antonio Express-News put it, congressional 
hearings look at the systemic failings that trials cannot and 
reinforce the concept of civilian oversight. Both are needed. 
Core issues must be addressed. The committee should hear from 
current Lackland victims and from independent experts on issues 
of victim treatment in the military justice system. The cycle 
of repeated scandals, self-investigations, and ineffective 
reforms must be broken.
    Because no victims from the current scandal have been 
invited to testify, I will share one of their stories from the 
local press. ``A young Air Force recruit who said her basic 
training instructor sexually assaulted her testified. After 2 
months of obeying his orders, she was frightened to protest his 
advances in a dark supply room. The defense asked the woman if 
she resisted Estacio's advances. `I was too scared to,' she 
replied. `Sometimes when somebody is too scared to talk, does 
that mean that they want to do something?' '' A military judge 
found Estacio not guilty of sexually assaulting the trainee, 
allowing the instructor to face a maximum 1-year prison 
sentence. Her story is very similar to mine. When I joined, I 
was a 24-year old, a small-town girl, with idyllic childhood. 
Soon, I was raped and assaulted by superiors.
    Sergeant Norris. Two of the predators pled guilty to sexual 
assault. They were honorably discharged with full benefits.
    By not dealing with a culture that provides easy targets 
for predators, we are hurting our military and our society. The 
predators often appear to be great troops, achieve high rank, 
are very charismatic and manipulative. But that is only part of 
the problem. The military justice system elevates an 
individual's discretion over the rule of law. Too often, the 
commanders' go-to solution is to sweep the problem under the 
rug and kick the victim out.
    Often, legislative reforms are inconsistently applied, 
unnecessarily encumbered, or just not implemented.
    In my work as an advocate, it breaks my heart to see the 
same problems today that existed when I joined 16 years ago--
sorry--39 percent of female victims report their perpetrator 
was of higher rank, and 23 percent report it was someone in 
their chain of command.
    The Air Force's Lackland report and previous reports 
indicate a failure of leadership. How many more times must 
Congress hear this before enacting fundamental reform?
    Why didn't the Air Force interview the victims to determine 
if they tried to report or feared reporting, and why?
    According to the DOD's own data, 47 percent of service 
members are afraid to report because of the reprisals that 
occur. This isn't just an Air Force problem, it is Service-
wide.
    Many Secretaries of Defense have declared a zero-tolerance 
policy. Yet recent actions challenge that notion.
    In September, Secretary Panetta proposed the President sign 
an executive order which would have eviscerated the military's 
Rape Shield Rule. In 2011, the military argued in court that 
rape is incident to service. Had I known this, that the 
military dismisses rape as an occupational hazard, I would 
never have joined. According to The L.A. [Los Angeles] Times in 
1992, in response to the Tailhook Scandal, ``Several lawmakers 
proposed stripping the armed services of their role in probing 
sexual molestation cases.''
    The deference and patience that Congress has shown the DOD 
has come at great cost to our service members, our security, 
and ultimately, our society.
    Retired Brigadier General Loree Sutton recently said, ``The 
only credible solution is an independent special victims unit 
completely outside the unit chain of command under professional 
civilian oversight.''
    And I agree.
    I ask you, as our elected representatives, please, please 
don't let this wait. God bless our brave men and women in 
uniform.
    [The prepared statement of Sergeant Norris can be found in 
the Appendix on page 146.]
    Dr. Heck. I want to thank all of you for your testimony. 
And thank you, Tech Sergeant, for your courage to be here today 
and to tell us your story. Certainly, acts of sexual assault 
under any conditions are especially heinous. But when committed 
by those in position of power and under color of authority, 
they are especially reprehensible. And we certainly appreciate 
you taking the time to be here today.
    This question is to Ms. McNally, Ms. Norris. The DOD and 
the military services have taken a number of steps, albeit 
maybe not enough, to develop, assess, and refine their 
respective sexual assault prevention and response programs. As 
individuals who are regularly involved with providing or 
coordinating care and other services for victims of these 
violent crimes, such as sexual assault, what do you consider to 
be the trademarks of a good response program?
    I will go to the Chief first.
    Sergeant McNally. Thank you. One of the first things that I 
think that has been a big problem is understating why we go 
unreported. And I know--I could see that the generals were 
putting their arms around this very same thing trying to 
explain that. And I can tell you speaking for myself and for 
some of the victims that I have supervised over the years that 
they don't report it because, number one, it is so traumatic, 
it is so ugly, and they know that it will be public knowledge. 
And so the number one fear, and no matter how compassionate you 
are, that this will go out. And how could I have let this 
happen to me? You know, the men have the same response when 
they are sexually assaulted. So the number one thing is 
something very personal, very ugly, very traumatic is going to 
be public knowledge. That is one of the biggest fears.
    The second thing is that it is a ``he said, she said.''
    And unless you see evidence that commanders have removed, 
removed from the Service, with consequences, anybody who 
enables an environment that allows harassment to even start, 
then you have no trust in your system. You have to see 
evidence. You know, not whack-a-mole responses to whatever 
crisis comes up in the sexual assault thing.
    And, finally, is the--you know, we have the ``he said, she 
said,'' and then we have what everyone likes to use the word 
``accountability,'' and I think that is thrown around a lot. 
That just means we moved them to another assignment. He needs 
to be responsible, they need to be held liable.
    So these are basically the three reasons why people don't 
report sexual assault. Until they understand that, they cannot 
present a viable sexual response, you know, sexual assault 
response program in any place, whether it be in the Air Force 
or in college. I mean, that is a fundamental thing you have got 
to get your arms around and understand. They should not come to 
you. You should be out there talking to them, you know talking 
to your troops. And commanders can't do that. The senior 
enlisted can do that, the commanders can't do that.
    Dr. Heck. Tech Sergeant, anything to add?
    Sergeant Norris. I provided you with my personal testimony 
to give you a little bit of background so that we didn't have 
to go into detail. But, unfortunately, the rape and the three 
different other predators who assaulted me, it all occurred 
within the first 2 years of my career. And for those who have 
served in the military, you recognize quickly that rank does 
come with privileges. Meaning, when you are lower in enlisted, 
you are that guy, or girl. And you are new to the institution. 
So you haven't been able to establish the credibility necessary 
to make a claim against someone that has been there for 18 
years and appears to be the best friend or the right-hand man 
of the commander. You are stuck. If you want a career, you 
don't want to say anything. Because you get retaliated against. 
You get thrown out, you get beat up.
    And that is what we need to stop. We need to remove the 
chain of command from the reporting process. It is absolutely 
detrimental to us being able to report safely. And if you think 
about it, it is actually good for the perpetrator too. Not that 
I stand up for them, by any means. But a fair process would be 
a fair process for both. So think about it. Commander, 18-year 
veteran, Active Duty guy, just raped me. And I know he is your 
buddy and best friend and he has had your back this whole time. 
I know, I just entered and I am just a little old E1. But. Just 
wanted to let you know.
    It doesn't work that way.
    You are too scared to tell the commander because, first of 
all, it is alleged, in every case. Very much of a trigger for 
me.
    Second of all, others start to think that, ``Oh, no, you 
better be careful around that girl because she might just say 
that you sexually assaulted her.'' And so you almost become a 
leper.
    And because of the small community within a squadron, the 
rumor mill starts flying. The victim doesn't want to talk about 
what happened. I didn't want to tell anybody what happened to 
me aside from the commander because he was the only person I 
had to go to. I wanted it kept confidential. I was ashamed. I 
was embarrassed. I couldn't believe that it happened. And 
continued to happen and pushed me to the point where I was 
forced to report, to prevent another rape.
    So this small-squadron business where they are putting the 
commanders in charge, I am not saying every commander's a bad 
man or a bad woman. You know. What I am saying is that to put 
that decisionmaking authority in one person's hands, that is a 
lot to ask not only of the commander, but also for the rest of 
us. You know, he decides one thing, I don't agree with it. What 
recourse do I have?
    None.
    So if they decide they don't want to believe you, have fun 
with that.
    Dr. Heck. Thank you. Dr. Lisak, based on your experience in 
both the military and civilian sectors, is it your view that 
the U.S. military is doing worse than civilian institutions 
when it comes to the investigation and prosecution of sexual 
assault cases? And in your view, what are the areas in the 
military's response to sexual violence that need the most 
attention and improvement?
    Dr. Lisak. Well, this is one of those things that is really 
impossible to average. There are several civilian jurisdictions 
that are doing quite good work in both investigating and 
prosecuting non-stranger sexual assaults, but they are really 
exceptions. By and large, it is a pretty bad picture.
    Likewise, in the Services, there are some good things that 
have started to happen in terms of better training, both for 
investigators and for JAG officers. It may be too soon to see 
much of the impact of that. I hear a little bit from--I just 
did a training of Army JAG officers and have begun to hear them 
say that they are seeing better CID reports. That is 
encouraging. It is very anecdotal, but if you started hearing 
that more and more, that would certainly be encouraging.
    About 3 months ago, I consulted on a court-martial. And it 
was probably an anomaly in that things went really well. 
Everything went well. Everybody did their jobs really well. 
What I value that experience for is it told me that it is 
possible, that if you have both JAG officers and OSI agents and 
the judge, the military judge, who are well-trained, who 
understand the issues, that this is a process that can be 
respectful to victims, can be respectful to the rights of the 
accused, and can handle even the complexities of the 
nonstranger sexual assault well. And there was a good outcome, 
from my perspective. There was a conviction and a good 
sentence.
    So it is possible. It is still, obviously, happening 
rarely.
    And I would hope that if the training that has begun is 
sustained, that we will see more of that. I also hope that if 
you see more of that, that some of what has just been described 
here is that we will begin to see incremental change in the 
level of trust in the system. Which would lead, hopefully, to 
more victims being willing to report.
    Dr. Heck. Thank you. Thank you.
    Ms. Davis.
    Ms. Davis. Thank you, Mr. Chairman, and thank you all for 
being here. I am sorry I missed the first part of your 
testimony. But, Tech Sergeant Norris, I really appreciate what 
you said. Because in many ways, you capture this incredible 
dilemma that we are facing.
    And if I may, Mr. Chairman, I just wanted to follow up 
briefly. Because I had asked about what we were able to 
capture, really, from the MTIs that were spoken to at Lackland. 
We had an opportunity to speak to several of the 
whistleblowers. And they were very clear about what they felt 
should be some key recommendations.
    And I am just disappointed and I wanted to include this in 
the record that the response came back about MTIs generally. 
And I believe that the generals--I think that they knew and I, 
you know, have great respect, but I think we were talking about 
whistleblower MTIs. And to our knowledge, they actually still 
have not been spoken to. And I think the people who were 
willing to come forward, because this very issue of sort of 
seeing through the good guys and being able to say, hey, you 
know, it is not all that it appears. Which is what many of the 
victims grapple with.
    I think we are doing a better job training prosecutors. And 
we have had an opportunity to hear some of that evolution of 
the way that we do that. But it is still a big problem.
    And I wanted to ask, because I must say, I have been 
reluctant to take this out of the chain of command. Because 
everything else is in the chain of command. And for us to pull 
this out in some way says that we don't believe that our 
officers are capable of dealing with this issue.
    So I wanted to just come back and ask, of the--you know, 
testimony that we had, and I often think that it is better to 
go with this kind of testimony and then follow up, frankly, 
what is it that you heard that was helpful that you think is 
moving forward well and what really was problematic?
    Because what we are interested here is what is the most 
effective, what will change the culture and change the ability 
of people to have any trust in it.
    So if you could respond to that, that would be helpful, and 
if you want to start.
    Sergeant Norris. Yes, ma'am. Are you talking about when I 
was listening to General Welsh and General Rice?
    Ms. Davis. Yes, if you would like to respond to that.
    Sergeant Norris. I had a very difficult time listening to 
General Welsh and General Rice today. Not only because of my 
own experience, but also because of what is happening to this 
day.
    This morning, I got a call from a client that is in the Air 
Force that we are having issues with. So it is--despite what 
General Rice and General Welsh are saying, which could very 
likely be very genuine, and they really do care, they are 
basically putting their trust in each individual commander to 
do the right thing. And in my eyes, that means, okay, 
commander, you are judge, jury, and executioner. You make the 
decisions.
    And what is happening is, is our commanders, depending on 
who they are, and even whether they are even, you know, 
schooled in this, I mean, it was hard for me to understand the 
whole thing and I was a victim of it.
    What we are finding is that the commanders aren't always 
giving people the right information in addition to even dealing 
with it.
    So they are not saying, okay, okay, maybe we need to go 
contact OSI and do something about this.
    They have the ability to stop it right there. Just by 
saying a couple things. All it would take is for a commander to 
say, Well, this is alleged. Or, Well, it is a ``he said, she 
said,'' for a victim to pretty much fall apart and decide I 
don't trust you, and I don't trust anybody and I am not doing 
anything with this.
    Me personally, I am a spitball. I am a spitball of fire. 
And I fought back on every single thing. Because I knew that in 
America, there is basic constitutional rights that include 
males and females. We are equal.
    So why is it that commanders in the military are given this 
special position that in society, we have civilian courts, we 
have supreme courts, we have the ability to appeal, we have all 
these different options available to us, but in the military, 
we have one person that may or may not help you.
    Ms. Davis. If I may go to Dr. Lisak, from your experience 
as well, looking at this in a beyond the military, what is your 
sense of this, again, in terms of pulling that out from the 
military accountability?
    Dr. Lisak. Well, I guess I have to preface what I say with 
a major caveat, which is, I am not an attorney and I don't view 
myself as anything close to an expert on military justice 
system, so this is purely from my own experience and just 
anecdotally.
    I recognize that what has been very articulately posed here 
is a significant problem. And I think a solution has to be 
found to that.
    The Services are clearly trying to solve it with training. 
I don't have a crystal ball. I don't know whether in 25 years, 
if we can wait that long, whether that will work or whether in 
25 years we will have another hearing like this, you know, and 
be looking for another solution.
    I wish I could.
    Because it is clear, you know, even not being an expert, I 
can tell that this is a major decision to make. And it can have 
all kinds of repercussions, many of which we can't anticipate 
and some of which could be pretty harmful.
    So it is a serious decision to be made.
    I guess my only contribution could be that, yes, this is a 
very serious problem. And what was, you know, described so 
perfectly that when you have--you know, we all want victims to 
come forward. If they don't come forward, not only can we not 
provide them with the Services we want, but we cannot go after 
those predators. You know, the justice system can't work, 
nothing works.
    And yet we haven't earned their trust. And how do you earn 
their trust when the command structure is--it is a very 
incestuous place. And you are asking victims to come forward to 
somebody who has a tremendous amount of power over them.
    So how we resolve that, I don't know. And I don't want to 
pretend that I do. Other than you are hearing that this is a 
serious problem that we have to find some solution for.
    Ms. Davis. I know we have to move on.
    Did you have a comment would you like to--did you want to 
respond to this issue?
    Ms. McNally. I think the first thing we need to look at is 
a change in culture. We set out--one of the things that we did 
was we had the command directive look at inappropriate material 
in the workplaces. That was directed by the Secretary of the 
Air Force.
    What we didn't say was, you had notice and commanders 
ignored you. We found this much material, then, generals, why 
did the commanders ignore you? I mean, if you have a good grasp 
for the culture, then why are they blowing you off? You know. 
When you start at the beginning. I mean, you know, I would have 
been down at the base removing the commander. After a month's 
notice, he knew we were coming. And they had videos of 
inappropriate behavior. We are not taking action on existing 
issues that we have right now.
    Ms. Davis. Thank you.
    Dr. Heck. Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    Let me say to all of you, I really apologize for the fact 
that so many of the members had to leave, many of them having 
to catch planes and the like.
    I would agree with Congresswoman Davis that it would have 
been appropriate to have you speak first so that it would have 
allowed for the generals to recognize what we are talking about 
here, more specifically.
    To you, Retired Sergeant McNally, you are absolutely right. 
There was an actual notice that went out at the Air Force: We 
are going to come through, we are going to see whether or not 
you have got sexual-harassing documentation in your cubicle, on 
your computer. Not your--by the way, not your laptops, but just 
the main servers. And after a month's notice they collected 
32,000--32,000 inappropriate documents.
    So your point is well taken.
    Mr. Chairman, I want to introduce one other victim who was 
not one of the--or survivors, I should say--was not one of 
those who testified. Jessica Hinves is here.
    Jessica, would you stand up for a moment?
    Jessica was an airman. She was raped. She reported the rape 
in 2009. So this is not an old case, this is a recent case. She 
was told that it was going to be investigated, it was going to 
go to court-martial. Two days before it was going to go to the 
court-martial, a new commander came into town, and that 
commander has the authority to dismiss the prosecution and 
ordered the court-martial to be abandoned.
    That is what is wrong with the system. Certain individuals 
have power that far exceed what it should be. And if you can 
basically stop a court-martial after all of that has taken 
place, you don't have the kind of independence to look at these 
cases. And that is what is so frustrating to so many of us.
    Thank you, Jessica.
    Dr. Lisak, you spoke earlier and talked about your work 
with the military, and it has been over 10 years. And I got the 
impression that you were basically saying that, you know, 
things are looking pretty good. And while, you know, there is 
probably more work that should be done, it is better than it is 
in the civilian arena, and so I would like for you to just 
comment on that a little more specifically.
    Dr. Lisak. Sure, thank you.
    Well, I am sorry I gave the impression that I think things 
are looking pretty good. Anything but.
    I was comparing the military's performance to the 
performance in the civilian sector in both the local district 
attorneys and our universities sort of similar populations. And 
compared to that, the military looks pretty good.
    But that really is as much if not more a comment about how 
bad things are in the civilian world.
    I don't disagree with anything that has been said here in 
terms of the really profound problems that the Services have.
    I do see the Services making efforts that I don't see in 
the civilian world.
    And I see little bits and pieces of evidence that some of 
those efforts are bearing fruit. And that gives me some hope.
    Ms. Speier. Let me ask you another question. You have done 
a lot of research, and you have profiled sexual predators, if I 
am not mistaken. Is that correct?
    Dr. Lisak. I studiously do not use the word ``profile.''
    Ms. Speier. Okay. You have studied them.
    Dr. Lisak. Yes.
    Ms. Speier. And you have studied them in the military. And 
my understanding is that it is not unusual to have these 
individuals, who I will call sexual predators, be exemplary 
soldiers. And beyond being exemplary soldiers, being soldiers 
that also are very good at identifying targets that are ripe 
for the preying. Is that correct?
    Dr. Lisak. That is correct.
    Ms. Speier. Alright. So one of the things that happens in 
the military is you can have as a mitigating factor the fact 
that you have good military character. That is a mitigating 
factor. So we can reduce--even though this is a felony, even 
though this is a crime, if you have been an exemplary soldier, 
then we are going to reduce the sentence. Because we don't have 
sentence guidelines in the military either.
    So I would actually disagree with you on a lot of counts, 
as compared to the civilian society where we do have sentencing 
guidelines, where there is a Rape Shield Law and where there is 
an appeal process and where there is independence, none of 
which exists in the military.
    But knowing that, don't we have a greater obligation in the 
military to make sure that these individuals that prey on 
victims, trainees in this case, over and over again, get taken 
out?
    Dr. Lisak. You mean----
    Ms. Speier. I mean taken out of the military. I don't mean 
taken out.
    Dr. Lisak. Well, I certainly agree with you that the only 
solution--if you have identified a predator and you have a--
some kind of judicial process that--the research is very clear 
that there is very little that can be done to rehabilitate 
predators. And that for the protection of the community, 
whether it is the military or the university or the civilian 
community, these individuals have to be isolated from the 
community, basically.
    Ms. Speier. Thank you. My time has expired.
    Dr. Heck. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    So Dr. Lisak, the question I have for you is dealing in 
these situations, having been part of an aircrew and a tight-
knit military unit myself, I find that the unit members know 
the tendencies of individuals. So that when this person is 
being accused, it is not surprising, they may be of great, 
upstanding moral character and great--as we used to say in the 
Army, they are your high and tight soldiers, they are hard 
chargers--but you know because the same situation that gets you 
into a situation where you are protective of one another and 
close knit also puts you in a role where you understand, okay, 
I have got to watch out for this guy.
    Is there anything that has been changed by the rise of 
women in--into higher ranks?
    I was often, for example, the highest ranking female in my 
unit. And I found that it became my role to step in in other 
units as well. And I was often the only EEO [equal employment 
opportunity] officer.
    So are you seeing some of those dynamics? I am not saying 
that there are not great male officers who act the way they 
should. But does that change the dynamic at all, to have more 
female officers who have trained?
    Dr. Lisak. This is a very anecdotal response to that.
    Ms. Duckworth. Okay.
    Dr. Lisak. Because it is my limited experience with, the 
various Services.
    I think it helps. But I don't think it is something that 
could be relied on as the fix. Because the same sort of 
cultural dynamics that we have been talking about all morning 
into the afternoon apply to women as well. And the forces, the 
pressures to conform, the pressures not to report, the 
pressures to be careful about who you say what to can apply to 
women as well and can silence women, even when they are in 
authority. When you are in authority, in the Services, there is 
always somebody who's got more authority. More power.
    So I think it is an improvement. And it helps, but it is 
not a sort of a fundamental fix.
    Ms. Duckworth. Thank you.
    Sergeant Norris, you would like to add?
    Sergeant Norris. Yeah, I would like to start by saying that 
oftentimes this issue gets turned into a male on female issue. 
And it is very important to note that 56 percent of our victims 
are males. It is yet to be looked at and given the attention 
that it needs to. And I want that on the record today. That 
this is not just a female issue, this is a predator issue.
    And just to let you know, things are getting worse. In 2010 
and 2011, commander actions on the ground dealing with sexual 
assault complaints have gone down 23 percent. Down 23 percent.
    Court-martials, 2010, 2011, down 22 percent. Court-martial 
convictions, same year, down 8 percent.
    The DOD surveys find that 39 percent of perpetrators are of 
higher rank, 23 percent are in their chain of command.
    So we are asking our people, our troops to turn to 
potential predators to report another predator, according to 
these statistics.
    Ms. Duckworth. Thank you for that. I did not know the--you 
said 56 percent?
    Sergeant Norris. Yes.
    Ms. Duckworth. That is good to know. So my question to you, 
then, Officer Norris, you obviously are, as you said, a 
spitfire and are willing to stand up.
    Do you find many of your clients staying--choosing to stay 
in once they are given the tools? Is there any way, once they 
have gone through this process, and if there is a resolution 
that can be reached, is there any way to keep these amazing men 
and women that we have invested so much money into, so much 
effort into, who could then take this knowledge and help others 
as they go on in their career? Are they so hurt that they just 
don't want nothing to do with the military?
    Sergeant Norris. That is a great question.
    On paper, all the sexual assault policies in the military, 
they are so pretty. They are beautiful. If they actually were 
implemented, that would be great. But they are not.
    And we see it to this day, since the passage of the Defense 
Strong Act in 2011, we have been dealing with implementation 
issues the entire time because of people just straight up 
ignoring it, not wanting to deal with it, or just we don't have 
time for this, the mission's more important. Beat it.
    That is what we are seeing. The culture is getting more 
vicious. I don't know if it is because it has become so popular 
with Congress now, and that it is out in the media. But the 
stakes have been risen.
    So in addition to getting raped, you are getting beat, you 
are getting threatened. And then we are having to fight with 
commanders on how to get this person off that base so they 
won't get prolonged PTSD.
    So no, right now, we are not going to be able to save them. 
Not with the system we have in place right now.
    Ms. Duckworth. Mr. Chairman, I am out of time. I just 
wanted to thank both Sergeant McNally and Sergeant Norris for 
your courage and leadership. We certainly need a lot more like 
you. Thank you.
    Sergeant Norris. Thank you.
    Dr. Heck. Likewise, again, we want to thank you for taking 
time to be here this afternoon. Certainly, for you, Tech 
Sergeant, for sharing your very compelling story, and for our 
other witnesses for providing your expertise to the panel. 
Seeing no other questions, the meeting is adjourned.
    [Whereupon, at 2:14 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                            January 23, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 23, 2013

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            A Review of Sexual Misconduct by Basic Training

                 Instructors at Lackland Air Force Base

                            January 23, 2013

    Thank you for joining us for our first hearing of the 113th 
Congress. I think it's appropriate that we begin our oversight 
with a subject that this committee has been vigilant in 
addressing for many years. At the same time, I find it 
extremely disturbing that despite the collective work of 
Congress, the Department of Defense, the military services, and 
the dedicated groups who advocate on the part of victims of 
this heinous crime, sexual assault and sexual misconduct 
remains a problem within our Armed Forces.
    Today we meet to receive testimony on sexual misconduct by 
basic training instructors at Lackland Air Force Base. The 
events at Lackland are the most recent example of sexual 
assaults that have plagued our military for far too long. This 
tragic example--where thirty-two instructors have either been 
found guilty, have been charged with, or are still being 
investigated for crimes against fifty-nine trainees begs the 
question--how could this have happened? How could the system 
and in particular the leadership have failed to protect the men 
and women who serve our Nation from sexual predators who also 
wear the uniform?
    While I applaud the Air Force for pursuing in-depth 
investigations to find answers to these questions, I am 
particularly disturbed to learn that there was significant 
delay reporting the allegations to the proper authorities when 
they first came to light. Equally troubling is that no action 
was taken by local leadership when the reporting delay was 
uncovered. This to me is unacceptable. I look forward to 
hearing from General Welch and General Rice how the Air Force 
has addressed these issues to eliminate the possibility that 
sexual misconduct goes undetected in the future.
    Make no mistake, Congress shares the responsibility for 
preventing sexual assault within the military and assuring 
victims that their cases will be prosecuted to the fullest 
extent of the law. Over the past 5 years, Republicans and 
Democrats have joined forces to put real reforms in place. We 
have ensured that victims of sexual assault are taken 
seriously, provided medical care and support, and that cases 
are investigated and prosecuted.
    Last year, Congress passed reforms in how the military 
tracks sexual assaults in order to paint a reliable picture of 
just how big the problem is. We have also mandated that only 
senior officers can handle sexual assault cases, ensuring that 
no matter what the rank of the victim, justice is meted out at 
the highest levels. We established a commission to take a 
critical look at the Uniformed Code of Military Justice and 
make recommendations for reform to make certain that the 
military justice system can successfully prosecute sexual 
assault.
    However, legislation is not the only answer. Commanders at 
every level and in every Service must make eliminating sexual 
assault and all forms of sexual misconduct from their commands 
the highest of priorities. Senior leaders at all levels must 
hold commanders accountable for aggressively pursuing 
allegations of sexual misconduct. We will accept nothing less.
    I understand that the Air Force has already made several 
changes to improve the safety and effectiveness of basic 
training. I would like to hear from our second panel if the 
reforms and safeguards recently put in place are sufficient.
    I have no doubt that there is more to be done. My visit to 
Lackland in September renewed my belief that the young men and 
women who volunteer to join our Armed Forces are the finest in 
the Nation. These young men and women have earned the respect 
of the Nation; they deserve the respect from their leaders and 
fellow service members.
    I would like to remind our members that at the same time we 
hold this hearing, the Air Force continues to prosecute the 
remaining cases at Lackland. When military perpetrators of 
sexual assault are tried by courts-martial, public statements 
by military and civilian leaders, especially senior leaders, 
about the guilt or innocence of an alleged perpetrator can be 
perceived as, or even may be undue command influence on the 
outcome of the trial. That means public testimony about 
Lackland could be used as grounds for a mistrial by defense 
attorneys. That isn't an outcome anyone wants. To that end I 
will give latitude to General Welch and General Rice to answer 
questions to the extent that it will not prejudice ongoing 
criminal prosecutions. We are all committed to eradicating 
sexual assault in our Armed Forces, but first we have to 
respect the victim's need for urgent and sure justice.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            A Review of Sexual Misconduct by Basic Training

                 Instructors at Lackland Air Force Base

                            January 23, 2013

    I want to welcome General Welsh and General Rice. Thank you 
for coming, I know that both of you have been personally 
engaged in addressing the sexual misconduct that occurred in 
basic training at Lackland, and within the United States Air 
Force. I also want to thank the witnesses on our second panel, 
Dr. David Lisak, Chief Master Sergeant Cindy McNally, USAF, 
retired, and Ms. Jennifer Norris. I look forward to hearing 
your testimony.
    Each year Lackland is home to more than 30,000 trainees who 
receive their basic military training (BMT) to enlist in the 
United States Air Force. Approximately 25 percent of these 
individuals are women. Basic military training is the backbone 
in developing our young airmen and women. It is the cornerstone 
to ensuring that the Air Force molds the behavior that is 
expected from those serving in uniform. So it is disturbing to 
learn that individuals who were entrusted to mold these young 
men and women took advantage of their positions and sexual 
harassed and assaulted the very individuals they had the 
responsibility to develop and train.
    We are here today because at least 32 basic military 
instructors have been investigated or are under investigation 
for inappropriate relationships with or sexual harassment and 
assault of close to 60 individuals who were victims. And, the 
investigations continue, so there may be additional instructors 
implicated and even more victims acknowledged. Given that the 
investigations and prosecutions are still ongoing, I just want 
to remind my colleagues that today's focus should be on the 
policies and process of what happened and what is being done to 
repair this broken system, because we do not want to adversely 
impact any ongoing prosecutions and investigations.
    General Welsh and General Rice, we are here to understand 
how these assaults and inappropriate relationships could have 
occurred, how the system failed to detect these individuals, 
and as a result of your reviews, what actions is the Air Force 
taking to prevent such activities from occurring in the future, 
where you are in the implementation of these recommendations, 
and how we can ensure that these changes are upheld in the 
future.
    General Welsh, while I understand the hearing is focused on 
Lackland and what is being done to correct the situation, I am 
also concerned with the larger Air Force population which is 
also seeing a number of sexual assaults and harassment. Is the 
culture within the Air Force unintentionally contributing to 
this problem? What is the Air Force doing to address this issue 
within its ranks? Can the lessons learned and the 
recommendations from the review at Lackland be used to address 
this issue for the rest of the force? If not, what actions is 
the Air Force taking to address this problem?
    Dr. Lisak, Chief McNally, and Ms. Norris, we look forward 
to hearing from you on recommendations you may have to address 
this issue. Sexual harassment and assault are not unique to the 
military; inappropriate comments, date rape, and other sexual 
crimes happen every day within our society. Similar 
institutions, such as colleges and universities, face similar 
challenges. Are there lessons learned that the military can 
build upon from the civilian sector? Unlike universities and 
colleges, the military has much more control over an 
individual's life, so are there areas in which the military 
could do better than civilian society? I am interested in 
learning what is working and what is not, and how we can 
leverage research, policies, and programs that are effective 
that can be implemented within the military.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 23, 2013

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 23, 2013

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MS. SANCHEZ

    General Welsh. The Unit Climate Assessment (UCA) system tracks the 
last UCA and the upcoming UCA date, and Equal Opportunity Specialists 
are reminded and prompted to conduct the assessment.
    To ensure commanders meet the National Defense Authorization Act's 
(NDAA) intent to conduct annual climate assessments, the Air Force is 
revising Air Force Instruction (AFI) 36-2706, Military and Civilian 
Equal Opportunity, to change the current two year requirement for unit 
climate assessments to an annual climate assessment. As stipulated in 
the NDAA, Air Force will now be required to conduct a climate 
assessment within 120 days of commanders assuming command. Annually 
thereafter, the Air Force will utilize a variety of assessment tools 
such as Out and Abouts, Focus Groups, and Interviews to assess the 
climate for commanders. The Equal Opportunity Office will conduct the 
climate assessments and report findings and recommendations to 
commanders.
    Currently, the Air Force utilizes the UCA as the means of assessing 
the climate. The UCA is an excellent assessment tool for commanders to 
determine the engagement of their personnel. The UCA measures the 
following areas:
    A) Cohesion and Pride,
    B) Motivation and Morale,
    C) Supervisory Support,
    D) Perceived Discrimination,
    E) Overt Discriminatory Behaviors,
    F) Command EO/EEO Policy, and
    G) Sexual Assault Prevention and Response (SAPR).
    Plus, the commander is allowed to select up to ten locally 
developed questions.
    All areas of the UCA are measured via Likert Scale, however, the 
SAPR questions are measured based on the selection made by the 
participant. Since the UCA incorporates the SAPR questions, Air Force 
equal opportunity personnel partner with the Sexual Assault Response 
Coordinators for the inbrief and outbriefs to the commanders. One of 
the sections that commanders appreciate is the comments section 
provided in each measurement area as these comments provide the 
verbatim responses from the survey participants.
    Once the survey is complete, equal opportunity professionals 
analyze the data, schedule an outbrief with the commander, and provide 
recommendations to address the issues/themes presented by the 
workforce. If necessary, focus groups are hosted to solicit additional 
information or confirm perceptions. [See page 16.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    General Welsh. There are 54 certified female Military Training 
Instructors (MTI); nine additional female MTIs are in training, 
assigned to Air Force Enlisted Basic Military Training (BMT)--these 63 
personnel represent 13 percent of the MTI cadre. Historically, female 
MTIs have represented 10 percent of the MTI cadre.
    Recent non-voluntary manpower initiatives seek to significantly 
increase the representation of females in the MTI corps with the goal 
of one female per team of four certified MTIs (per two flights of 
trainees). To achieve this, the Air Force has established a requirement 
to increase inbound female MTI staffing to seven per month to achieve 
and sustain an overall number of 129 certified female MTIs. Once this 
level of female manning is achieved, BMT's ratio of female MTIs would 
then match our trainee population of approximately 25 percent. [See 
page 25.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. ENYART
    General Rice. During the period the misconduct occurred, 2009-2012, 
one of the two Chief Master Sergeants (CMSgt, E-9) assigned to Basic 
Military Training (BMT) was female. We currently have one male and one 
female CMSgt working in BMT. We have recently hired four CMSgts for BMT 
squadron superintendent positions; one of the four CMSgts is female.
    For the Air Force Recruiting Service, six of twenty-seven CMSgts 
and two of five CMSgt-selects are currently female. [See page 32.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 23, 2013

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. 1) Given that the findings and recommendations in the 
Air Force November 2012 report parallel the results of other reviews 
that have been conducted over the course of nearly a decade, is this 
review indicative of a larger deficiency in the Air Force's culture 
that remains unaddressed?
    General Welsh. The Air Force has changed tremendously over the last 
several years but it has not changed enough. Our professionalism and 
culture must be consistent with our core values of integrity, service 
and excellence. As the Secretary of Defense states, there is no place 
in the military for sexual assault and our goal is ``zero.'' In 
November, I convened an ``All-Call'' with all 140 wing commanders to 
give them my expectations of them as leaders. This was followed up with 
a Health and Welfare Inspection of common work areas. The results of 
this inspection revealed we have more work to do. We will continue to 
improve until work centers are reflective of the pride and 
professionalism of our Airmen.
    To institute sustained and enduring change, we have also taken 
efforts to operationalize Sexual Assault Prevention and Response (SAPR) 
program initiatives. This includes a special interest item on 
inspection checklists to ensure viable programs and policies are 
implemented. We also recently convened a SAPR scenario exercise 
throughout United States Air Forces in Europe and will continue to 
exercise these scenarios throughout the Air Force.
    Additionally, we are in the midst of enhancing accessions, pre-
command, senior enlisted leader, professional military education and 
annual training programs. Enhanced SAPR training over the course of a 
career will provide continued attention and emphasis to support long 
lasting change. This training also targets our senior leaders, to 
include quarterly video teleconferences with wing commanders and annual 
SAPR leader summits in which national experts provide education on a 
variety of topics, including victimology, victim care, investigatory 
techniques and accountability.
    Finally, we are working the required additional manpower 
requirements under the current fiscal constraints to support a 
sustained SAPR program. This includes victim advocates, sexual assault 
response coordinators, and legal assistance, as well as specially 
trained investigators and prosecutors to ensure we hold offenders 
accountable.
    Mr. Smith. 2) To what extent did the commander-directed 
investigation or the Air Force analyze the background of each of the 
alleged offenders at Lackland to identify what, if any, trends exist 
among the alleged perpetrators (such as criminal history, disciplinary 
actions incurred while in the military, service waivers and the like)?
    General Welsh. The commander directed investigation (CDI) conducted 
by Major General Margaret Woodward and internal reviews by Air 
Education and Training Command examined the backgrounds of alleged 
offenders. None of the reviews revealed information among the alleged 
perpetrators that would have indicated a propensity to engage in sexual 
misconduct prior to their arrival at Basic Military Training. Although 
these reviews did not reveal common demographics among alleged 
offenders, they did help to identify trends in how the alleged offenses 
were committed. These trends highlighted shortcomings in existing 
policies, procedures, resources, and leadership, and served as the 
focus for our corrective efforts. For example, in the past it was not 
difficult or uncommon for a military training instructor (MTI) to meet 
alone with a trainee, whether or not for legitimate purposes. Under the 
new wingman procedures, the ability of an MTI to isolate a trainee has 
effectively been negated.
    Mr. Smith. 3) GAO found that some first responders were not always 
aware of the health care services available to sexual assault victims 
because not all of them were completing the required training. What 
steps has the Air Force taken to improve first responders' compliance 
with completing annual refresher training on sexual assault prevention 
and response?
    General Welsh. First responder training for medical personnel has 
been implemented since Calendar Year (CY) 2010. In 2011, the Air Force 
Medical Service (AFMS) upgraded First Responder Training for healthcare 
personnel on MedLearn. This computer-based training is required 
annually for all healthcare personnel as defined by Air Force 
Instruction 44-102, Medical Care Management. Compliance is tracked by 
each military treatment facility's Education and Training office. The 
training module incorporates services available to assault victims. The 
curriculum is standardized, clear and concise and is updated at least 
annually. The AFMS has seen a dramatic increase in the number of 
healthcare personnel who have completed this training, as evidenced by 
the following data:
    CY12--24,680 medics completed First Responder Training for 
Healthcare Personnel
    CY11--24,296 medics completed First Responder Training for 
Healthcare Personnel
    CY10--6,000 medics completed First Responder Training for 
Healthcare Personnel
    The Air Force Surgeon General continuously monitors training 
completion and compliance of annual refresher training for sexual 
assault prevention.
    Additionally, our Military Criminal Investigation organization and 
Security Force personnel currently receive first responder training 
based on their specialty. We will also convene a multi-disciplinary Air 
Force integrated product team in the summer of 2013 to further review 
and assess first responder sexual assault services, including the 
timing and delivery of support provided to victims, as well as the 
methodology used to evaluate training effectiveness. This effort will 
be in partnership with the Office of Secretary of Defense Sexual 
Assault Prevention office who has also established a Special Victims 
Capability to improve capabilities of all first responders.

    Mr. Smith. 4) The Department of Defense June 2006 Instruction on 
sexual assault prevention and response recommended that the Services 
provide informational briefings and scenario-based training through the 
professional military education system, to include initial-entry 
training. Why did it take the assaults at Lackland and an investigative 
report on sexual misconduct during basic military training for the Air 
Force to finally undertake the development of such training?
    General Rice. Beginning in 2005 and phased in by 2007, the Air 
Force developed career-long Sexual Assault Prevention and Response 
(SAPR) education and training with Air Education and Training Command 
and private sector subject matter experts. SAPR curriculum includes 
both policy overview and discussion-based scenarios/exercises to comply 
with Department of Defense requirements. Airmen receive SAPR education 
and training in Basic Military Training, technical training, the First 
Term Airmen's course, officer training school, officer and enlisted 
professional military education, and during annual and pre-deployment 
training.
    In 2007, a workshop with 25 subject matter experts on sexual 
assault identified bystander intervention as the most effective 
prevention effort within the military culture and environment. To that 
end, Air Force prevention initiatives for the last two years focused on 
bystander intervention training (BIT), 90-minute small-group 
facilitated modules for leaders that incorporated discussion, exercises 
and scenario-supported learning. Mandatory Air Force-wide BIT began in 
January 2010 and was completed in September 2012. Over 448,000 Airmen 
(active duty, Air Force Reserve Command, and Air National Guard) and 
civilian supervisors of military were trained.
    The Air Force will continue to search for innovative ideas to reach 
the next level in our prevention and response efforts. In January 2013, 
we stood up our second of several integrated product team meetings, 
incorporating university experts and other subject matter experts, to 
assess our pre-command, senior enlisted, and entry-level SAPR education 
and training curricula with the goal to make it more relevant and 
impactful. Future meetings will include the review and assessment of 
other SAPR-related training, to include annual, pre-deployment, post-
deployment, military recruiter, first responder training, as well as 
all levels of professional military education.
    Mr. Smith. 5) The commander-directive investigation report 
regularly referenced ``unique challenges'' that exist in a training 
environment. What steps, if any, are being taken to identify and modify 
other Air Force programs and areas that pose ``unique challenges'' and 
require a more tailored approach in the prevention and response to 
sexual assault?
    General Rice. The ``uniqueness'' of the training environment 
addressed in the Lackland Basic Military Training commander-directed 
investigation referenced the training instructor's level of authority 
over trainees, often with little or no supervision.
    While each installation and command poses distinctive challenges, 
this type of supervisor-subordinate relationship is not typical in Air 
Force organizations. In most instances, there is supervisory overhead 
to include branch and flight chiefs and superintendents. We acknowledge 
that this does not always preclude misconduct or inappropriate behavior 
and is why we have and will continue to emphasize every Airman's 
responsibility to do the right thing and the significance of being a 
good Wingman.
    In regards to a tailored approach in the prevention and response to 
sexual assault, we recently solicited from major commands shared best 
practices. The consolidated list is posted on the Air Force SAPR 
website for commanders to evaluate for local level implementation.
    Mr. Smith. 6) The Air Force recently implemented a mandatory 
misconduct reporting requirement based on the recommendation from the 
commander-directive investigation that ``a clear policy be developed 
requiring that wing commanders be informed immediately of all 
allegations of sexual assault, sexual harassment, unprofessional 
relationships, maltreatment, and maltraining.'' However, this new 
policy does not provide an exemption to victims that would allow the 
option to make a restricted report. To what extent does the Air 
Education and Training Command's mandatory misconduct reporting 
requirement adhere to or is consistent with DOD's policy on restricted 
reporting of sexual assault incidents? How does Training Command plan 
to bridge the disconnect between the new reporting requirement and the 
current procedures that service members and first responders are taught 
to follow when making a restricted report on sexual assault?
    General Rice. On August 20, 2012, the commander of 2nd Air Force, 
Major General Leonard Patrick, created a mandatory misconduct reporting 
requirement for, ``all military training leaders, military training 
instructors, and other training squadron personnel (except victims of 
the alleged offense or trainees) with knowledge of a reportable 
offense.'' Because this policy does not apply to victims of misconduct, 
it is completely consistent with restricted reporting options provided 
through the Air Force.
    Mr. Smith. 7) The investigation team indicated that it spoke with 
``immunized perpetrators'' as part of its review. To what extent did 
the investigation team use these individuals? How many individuals 
contributed to the review that would be classified as ``immunized 
perpetrators'', for what types of offenses did they receive immunity, 
and who determined who received immunity, and are these individuals 
still serving in the military?
    General Rice. The only ``immunized perpetrator'' interviewed by the 
commander directed investigation (CDI) led by Major General Margaret 
Woodward was Airman Peter Vega-Maldonado, as he was the only 
perpetrator immunized at the time of the CDI. Airman Vega-Maldonado's 
testimony before General Woodward's team was instrumental in 
understanding military training instructor (MTI) culture as well as 
identifying policy, resource, and leadership shortcomings that may have 
enabled his misconduct.
    Airman Vega-Maldonado was convicted by a special court-martial on 
April 6, 2012 of an unprofessional relationship with a technical 
training student. After his court-martial, Brigadier General Theresa 
Carter, the 502d Air Base Wing commander, granted Airman Vega-Maldonado 
testimonial immunity and ordered him to cooperate with investigators. 
General Carter, as a general court-martial convening authority, was 
authorized to grant immunity in this case pursuant to Rule for Courts-
Martial 704, under the Manual for Courts-Martial.
    Pursuant to his immunity, Airman Vega-Maldonado admitted engaging 
in consensual unprofessional relationships with four additional 
students in technical training. He also provided investigators with 
information regarding seven other potential MTI misconduct cases.
    Airman Vega-Maldonado did not receive immunity for any particular 
offenses. Rather, under a grant of testimonial immunity, Airman Vega-
Maldonado may not be prosecuted based on any information derived from 
his immunized testimony. For example, his admission that he engaged in 
four additional unprofessional relationships may not be used against 
him in a court-martial.
    Three additional MTIs have since received testimonial immunity 
subsequent to their own courts-martial. Immunity was deemed necessary 
in those cases because prosecutors believed these individuals had 
information about other MTI misconduct that could not be obtained by 
any other means. All of the MTIs who have received testimonial immunity 
are still serving with the Air Force for a variety of reasons, to 
include completion of their court-martial sentences and participation 
in ongoing investigations and prosecutions.
    To date, 18 alleged victims of MTI misconduct have also received 
testimonial immunity and been ordered to cooperate with investigators. 
In each case, the alleged victim was believed to have willingly engaged 
in an unprofessional relationship with an MTI in violation of Air 
Education and Training Center policy. Testimonial immunity was deemed 
necessary in these cases because the victims either refused, or were 
reluctant, to cooperate with investigators due to their legitimate 
concerns about self-incrimination.
    Mr. Smith. 8) To what extent did the commander-directed 
investigation or the Air Force analyze the background of each of the 
alleged offenders at Lackland to identify what, if any, trends exist 
among the alleged perpetrators (such as criminal history, disciplinary 
actions incurred while in the military, service waivers and the like)?
    General Rice. The commander directed investigation conducted by 
Major General Margaret Woodward and internal reviews by the Air 
Education and Training Center examined the backgrounds of alleged 
offenders. None of the reviews revealed information among the alleged 
perpetrators that would have indicated a propensity to engage in sexual 
misconduct prior to their arrival at Basic Military Training. Although 
these reviews did not reveal common demographics among alleged 
offenders, they did help to identify trends in how the alleged offenses 
were committed. These trends highlighted shortcomings in existing 
policies, procedures, resources, and leadership, and served as the 
focus our corrective efforts. For example, in the past it was not 
difficult or uncommon for a military training instructor (MTI) to meet 
alone with a trainee, whether or not for legitimate purposes. Under the 
new wingman procedures, the ability of an MTI to isolate a trainee has 
effectively been negated.
    Mr. Smith. 9) Sexual assault prevention and response training moved 
from week 7 of basic military training to week 5, and a potential move 
to week 4 was being considered. What, if any, criteria are being used 
to determine when sexual assault prevention and response training 
should be provided in basic military training? To what extent have the 
data from the recent report of alleged sexual misconduct during basic 
military and technical training been analyzed to identify what trends 
may have existed at the time the misconduct took place? For example, 
did data indicate the misconduct predominantly took place at the 
beginning of basic military training when trainees may be more 
vulnerable, or at the end of training when trainees are provided more 
freedom?
    General Rice. Decisions on where to place Sexual Assault Prevention 
and Response (SAPR) training in the Basic Military Training (BMT) 
program are based on several factors: 1) encouraging reporting from the 
onset of training, 2) reducing fear of reporting and 3) reinforcing 
SAPR messaging through related learning objectives for increased 
retention. For these reasons, there are several points of training. 
Within 72 hours of arrival the group commander briefs all trainees to 
immediately report any sexual or other misconduct and how to do that, 
as well to give a personal assurance that those who report will not be 
punished. The squadron commander follows up in the first week of 
training, defining sexual crimes, describing the multiple venues for 
reporting (e.g. via Sexual Assault Response Coordinators (SARC), 
chaplains, medical providers, etc.), methods of reporting (restricted 
and unrestricted) and the implications for each, and leadership's total 
commitment to place victim support as the first priority. Also in the 
first week, military training instructors brief/show trainees the SARC 
visual aid located in every dormitory and in every trainee's study 
guide which contains the SARC hotline reporting number.
    A new lesson has been crafted to alert trainees and MTIs of early 
signs of developing unprofessional relationships (e.g. early signals of 
sexual predator grooming) in the training environment. Plans are to add 
this training into the second week of training to reinforce Human 
Relations I and II training messaging, in the second and third weeks of 
training respectively, each designed to promote a culture of respect 
among Airmen. SAPR Accessions I training was moved from the seventh to 
the fourth week of training to place it prior to the week of field 
training deployment to reinforce the connection between SAPR and 
mission accomplishment, and to allow reinforcement again during an 
Airmanship and Core Values lesson and in the Squadron Commander's 
Departure Briefing, both just prior to graduation. It also provides any 
victims more time with a trauma counselor, if they request counseling. 
The Squadron Commander's Departure Briefing also specifically addresses 
prohibitions in contacting Airmen using electronic communications 
(phone, text and social media) after BMT, especially stressing periods 
of liberty and technical training. While the majority of sexual 
misconduct incidents occur at the end of training or after graduation, 
all of the above training improvements are intended to identify and/or 
prevent sexual predator grooming which investigative cases have shown 
occur early in training.
    Mr. Smith. 10) To what extent did the DOD Inspector General's 
office contribute to the commander-directed investigation team's review 
of sexual assault?
    General Rice. The Department of Defense Inspector General's (IG) 
office did not contribute to the commander directed investigation 
because commander-directed investigations are independent of the IG 
system. Commanders have an inherent authority to conduct commander-
directed investigations to examine systemic or procedural problems or 
to look into matters regarding individual conduct or responsibility, as 
was the case here.
    Mr. Smith. 11) To what extent did the Air Force solicit input from 
responders such as medical and mental health personnel on their ability 
to provide or coordinate care for alleged victims during basic military 
or technical training?
    Where there any identified changes that are needed to improve 
medical and mental health care to service members who are assaulted 
during basic military or technical training?
    And, did the Air Force solicit input from individuals or groups 
outside of the military culture with experience in prevention and 
response to sexual assault?
    General Rice. The Joint Base San Antonio (JBSA) Lackland Sexual 
Assault Response Coordinator (SARC) coordinated with both medical and 
mental health personnel on providing consolidated care for victims of 
sexual assault. Trainees are notified of base resources, to include 
SARC services, at the beginning of training and during their fourth 
week of basic military training. If a sexual assault victim presents to 
Behavioral Analysis Service (BAS) for assessment, BAS contacts the JBSA 
Lackland SARC for supportive care. The JBSA Lackland SARC office staff, 
which includes a sexual assault trauma counselor, provides continued 
supportive victim-centered care to current basic military and technical 
school trainee sexual assault victims including those who experienced 
sexual assault prior to military service. Upon the trainee's departure 
from JBSA Lackland, these cases are either closed or forwarded to the 
victim's technical school or their first duty station assignment, 
depending on the victims request for further SARC Support. 
Additionally, the JBSA Lackland SARC works closely with the local area 
Rape Crisis Center in providing resources to victims who elect to 
utilize non-Department of Defense support and provides brochures and 
flyers from recognized organizations (1 in 6, Military One Source, 
etc.) to victims of sexual assault.
    The JBSA Lackland SARC and the 559th Medical Group (MDG) BAS 
continue to work closely together to improve coordination and support 
for victims of sexual assault. The JBSA Lackland SARC makes referrals 
to sexual assault victims as requested/needed (e.g., Local Rape Crisis 
Center, Mental Health, etc.) for further assessment and/or treatment. 
In addition, the 559th MDG process continues to assess for past/current 
history of sexual assault during intake evaluations and works closely 
with the JBSA Lackland SARC to refer trainees as needed. The 37th 
Training Wing recently added a widely publicized SARC hotline for 
trainees and increased SARC access to training operations.
    In 2011, the Air Force Medical Service (AFMS) upgraded First 
Responder Training for healthcare personnel on MedLearn. This computer 
based training is required annually for all healthcare personnel as 
defined by Air Force Instruction 44-102, Medical Care Management. The 
training module incorporates services available to assault victims. The 
curriculum is standardized, clear and concise and is updated at least 
annually. The AFMS has seen a dramatic increase in the number of 
healthcare personnel who have completed this training, as evidenced by 
the following data:
    CY12--24,680 medics completed First Responder Training for 
Healthcare Personnel
    CY11--24,296 medics completed First Responder Training for 
Healthcare Personnel
    CY10--6,000 medics completed First Responder Training for 
Healthcare Personnel
    The Air Force Medical Service (AFMS) has strengthened their sexual 
assault process by partnering with external resources and subject 
matter experts. The 2012 AFMS Sexual Assault policy was developed using 
civilian subject matter experts' valuable input and guidance. Dr. Linda 
Ledray, a leading national and international sexual assault nurse 
examiner, lent her expertise in the development and standardization of 
the Sexual Assault policy. Additionally, Air Force policy requires 
military treatment facilities to partner with external resources/
facilities to conduct sexual assault exams (SAE), if they do not have 
an internally trained team to conduct such exams. This ensures quality, 
standardized exams with certified and experienced examiners.
    The judge advocate community recently initiated a program, called 
the Special Victims' Counsel, to provide sexual assault victims a 
specially trained judge advocate for representation. The Special 
Victims' Counsel's primary purpose is to provide victims with 
independent, attorney-client privileged representation throughout the 
investigation and prosecution processes. In implementing and developing 
the Special Victims' Counsel Program, the Air Force Judge Advocate 
General's Corps continues to partner with several external sources to 
develop this program--receiving valuable and continuing input from The 
National Crime Victim Law Institute, Lewis & Clark Law School, 
Portland, Oregon, and the Department of Justice's Office for Victims of 
Crime, Washington, DC.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. 12) General Welsh, I would like to thank you for your 
recent efforts in the short notice service-wide health and welfare 
inspections. Clearing all Air Force work centers (including public 
areas) of any unprofessional material is a great step in changing the 
culture. With that, I will say I was surprised to see that the Air 
Education and Training Command had a large number of sexually explicit 
materials. The results of the inspection should serve as a wakeup call 
that the culture must change. How will you ensure that the progress 
made by this inspection is kept up?
    General Welsh. The intent of the Health and Welfare Inspection was 
to reset the Air Force workplace environment to coincide with my 
direction and expectations that Air Force workplaces must be 
comfortable for all Airmen to work in. This is a culture change, and in 
order to shift our culture, we must reach every level of leadership 
throughout the Air Force. To ensure compliance, the commanders' 
inspection program now includes requirement for regular health and 
wellness inspections by commanders. Major commands review wing 
inspection results and provide oversight on installation programs. 
Furthermore, the staff here is responsible for oversight of major 
command programs to evaluate Air Force-wide compliance.
    Ms. Tsongas. 13) I was very pleased to be briefed by General 
Harding, Air Force JAG, regarding the implementation of a Special 
Victims Counsel Program. With the initiation of the Special Victims 
Counsel, do you believe there will be an increase in the number of 
victims coming forward to report their assaults/rapes? Is the Air Force 
prepared for an influx of reports?
    General Welsh. Sixty Air Force attorneys have been identified and 
trained to serve as Special Victims' Counsel providing comprehensive 
and compassionate legal assistance to victims. Their job is to advise 
the victim and to assist the victim throughout the investigatory and 
prosecutorial phases of their case. Our goal is to provide a level of 
support to victims so that they do not feel like they have been 
victimized a second time by the process. If victims feel like they are 
treated better by the entire system, then it is our hope that more 
victims will feel comfortable coming forward and reporting a sexual 
assault.
    The Special Victims' Counsels are currently prepared to assist all 
eligible sexual assault victims of on-going investigations and courts-
martial, and future cases as they arise. Even if additional victims 
come forward, not all of the eligible victims will require the same 
level of workload, based on whether the case is restricted or 
unrestricted, the stage of the proceeding (early investigation, mid-
investigation, post-preferral or post-referral), and the needs of a 
particular individual. The Air Force is committed to devoting the 
resources necessary to provide legal counsel to sexual assault victims.
    Ms. Tsongas. 14) In Dr. Lisak's written testimony, he touched on 
the fact that ``we'' shy away from the victim due to the nature of the 
problem. I have often wondered how victims are treated in their work 
centers after they report a sexual violence crime. From what I hear 
from victims my office communicates with, they are often isolated. 
Aftercare or ``postvention'' must be present to ensure the victim feels 
supported. What is the Air Force doing to ensure every military member 
understands how important it is to treat the victim ``normally'' after 
they have reported such a crime?
    General Welsh. Our first focus is on victim care and support, and 
our goal is to maintain this priority through improved aftercare or 
``postvention'' for each victim. The Air Force provides a number of 
support services to victims of sexual assault, including a victim 
advocate, legal assistance, medical care, mental health services, and 
chaplain support. Enhanced and continued Sexual Assault Prevention and 
Response Program (SAPR) training to include at accession, annually, by-
stander intervention and during professional military education courses 
will educate all Airmen and better prepare them as ``Wingmen.'' We 
discuss with commanders the importance of victim care and emphasize the 
assault was not the victim's fault, victims should be treated normally 
in the unit and they were not disloyal for reporting the assault.
    In addition to SAPR training, leadership communication and emphasis 
is critical. To this point, we will conduct quarterly video 
teleconferences with all wing commanders and we have a strategic 
communication plan to ensure consistent and continuous messaging. 
Installation case management group meetings are convened monthly to 
discuss a victim's progress and any on-going issues. For unrestricted 
cases, these meetings are attended by the victim's chain of command, 
victim advocate, mental health, and legal counsel, who discuss issues 
to improve victim care and support. Additionally, specific training on 
how to provide appropriate support and aftercare to victims who report 
a sexual assault is now incorporated in standardized curricula for 
commanders and first sergeants. Finally, victims who submit 
unrestricted reports have the opportunity to request an expedited 
transfer.
    Ms. Tsongas. 15) Recently, it was announced that the first male 
victims came forward at Lackland. Given the information in Dr. Lisak's 
testimony, it seems that there may be more. What are you doing to make 
sure that there aren't male victims we're missing?
    General Welsh. All victims of sexual assault, regardless of gender, 
are encouraged to report and obtain the care and support they need. A 
2010 Gallup Survey on the prevalence/incidence of sexual assault in the 
Air Force estimated 0.5 percent of males (1,355) in the Air Force had 
been sexually assaulted within the preceding 12 months, though only a 
fraction reported. While the reasons for not reporting differ by type 
of assault that occurred, the Gallup survey indicated there are several 
reasons women do not report while the majority of men (63 percent) do 
not report because they do not consider the incident serious enough. 
This perception is a challenge for us to overcome. However, we continue 
to work the issue through training which includes discussion on gender 
issues.
    Additionally, we have implemented the ``Rights and Duties of Airman 
Trainees.'' This document accompanies the Airman from the recruiting 
station through completion of technical training and outlines how to 
report sexual assault and misconduct. The Lackland training 
instructor's acts of misconduct were briefed to all trainees, to 
include recent graduates, and victims were encouraged to report.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. 16) On behalf of Mr. Cummings, Ranking Member of the 
House Oversight and Government Reform Committee: I am deeply concerned 
about the failure to have appropriate procedural and investigatory 
protections of alleged victims of sexual assault. The civilian criminal 
justice system limits the defendant's ability to cross-examine victims 
about their past sexual behavior, this is commonly known as the rape 
shield law. Military adjudicatory process also has a rape shield law, 
but invariably it permits the defense to discuss the victim's sexual 
proclivities. Additionally, an individual who is accused of committing 
sexual assault has the ability to provide character-bolstering evidence 
during a court martial. By comparison, in the civilian adjudicatory 
process character-bolstering is not permitted. Has the USAF considered 
or begun the process of evaluating changes to the military adjudicatory 
process as to better protect alleged victims? If so, what 
recommendations, if any are under consideration or have been issued to 
date?
    General Welsh. Military Rules of Evidence (MRE) 412 generally 
prohibits the introduction of evidence offered to prove that an alleged 
victim engaged in other sexual behavior or to prove an alleged victim's 
sexual predisposition. MRE 412 is substantially similar in substantive 
scope to the Federal Rules of Evidence (FRE) 412. MRE 412 is intended 
to shield victims of sexual assault from the often embarrassing and 
degrading cross-examination that is common to prosecutions of such 
offenses. MRE 412 applies to any alleged sexual offense case and is not 
limited to rape or assault with intent to commit rape.
    The exact same exceptions that exist in FRE 412 apply to MRE 412. 
Evidence may be admitted only if excluding it would violate the 
accused's constitutional rights. This is the same standard that is also 
commonly used in most state courts as well. The procedures to determine 
admissibility are similar to the Federal Rule but modified to conform 
to military practice. For example, the time period to provide notice of 
intent to introduce evidence under Rule 412 is shortened and a closed 
hearing is substituted for an ``in camera'' hearing by a federal judge. 
Thus, Rape Shield protections apply equally in the military as they do 
in other Federal courts.
    MRE 404 generally prohibits the introduction of character evidence, 
which is mirrored in Federal Rules of Evidence 404. MRE 404 permits an 
accused to offer evidence of a pertinent character trait, just as FRE 
404 allows. Evidence of good military character is admissible when that 
specific trait is pertinent. Military appellate courts have taken an 
expansive view of when that trait is pertinent. However, those same 
courts also apply an equally liberal standard to the scope of 
government rebuttal that allows the government to rebut evidence of 
good military character that would otherwise not be admissible. Unlike 
civilian courts, courts-martial are part of a disciplinary scheme 
relied upon to maintain good order and discipline, to preserve 
obedience and conformity necessary to successful military action, and 
to eliminate from the military individuals who pose a risk to other 
service members or national security. Often, acts not punishable as 
crimes in civilian society are deemed criminal under military law. A 
long-standing tradition based on the separate nature of military 
society is one basis for admissibility of the evidence; whatever weight 
the evidence carries at trial may be little or none.
    The Air Force implemented the Special Victims' Counsel Program on 
January 28, 2013 as a pilot program as one means of providing better 
support to sexual assault victims. The lessons learned from this 
program will be collected and evaluated to make recommendations for 
potential changes to the Uniform Code of Military Justice, the Rules 
for Courts-Martial, or the Military Rules of Evidence.
    Ms. Speier. 17) On behalf of Mr. Cummings, Ranking Member of the 
House Oversight and Government Reform Committee: This month the Air 
Force Academy reported that sexual abuse and assault reports have 
increased significantly to 65 during the last academic year compared to 
41 the year prior. Why is there an increase in assaults? What specific 
actions has the USAF taken to investigate and properly curtail the rise 
in these incidents? What best practices from other military academies 
or other entities is USAF considering implementing to better address 
this growing issue?
    General Welsh. The numbers 65 and 41 are actually the total number 
of reports from all three Military Service Academies for academic years 
(AY) 2010-2011 and 2009-2010, respectively. The number of sexual 
assault reports at the United States Air Force Academy (USAFA) has gone 
up steadily since AY 2008-2009 (listed below) and may be attributable 
to the efforts to increase reporting. Additionally, 12 of the 52 
reports for AY 2011-2012 were cases of sexual assault that occurred 
prior to entry.

    Academic Year    Number of Sexual Assault Reports

    AY 2005-2006            17
    AY 2006-2007            19
    AY 2007-2008            24
    AY 2008-2009             8
    AY 2009-2010            20
    AY 2010-2011            33
    AY 2011-2012            52

    USAFA maintains a robust Sexual Assault and Prevention and Response 
(SAPR) program as described in the Annual Report. Each cadet receives 
over 12 hours of SAPR related development education during the course 
of their four-year career which is closely aligned to USAFA's officer 
development model (USAFA's development model aligns development 
education along a four year progression from follower to organizational 
leader). USAFA uses a wide range of techniques to deliver SAPR related 
training, to include the use of subject matter experts. This fall, 
USAFA will implement by-stander intervention training modeled after the 
active duty program.
    USAFA thoroughly investigates all unrestricted reports of sexual 
assault and prefers charges to court-martial when appropriate.
    Additionally, USAFA reviews the reports of the other Military 
Service Academies along with the Department of Defense annual reports 
looking for best practices and new and effective ideas. USAFA is also a 
member of the Colorado Coalition Against Sexual Assault which includes 
universities throughout the state and provides a forum for the exchange 
of ideas.
    Ms. Speier. 18) On behalf of Mr. Cummings, Ranking Member of the 
House Oversight and Government Reform Committee: USAF vision is to 
``excel as stewards of all Air Force resources in service to the 
American people, while providing precise and reliable Global Vigilance, 
Reach and Power for the nation.'' How can the USAF live up to its 
vision when the outward appearance of the Service is that it has 
recruited individuals that think it is acceptable to engage in behavior 
that runs counter of that vision?
    General Welsh. Since the Sexual Assault Prevention and Response 
program was implemented by Department of Defense Directive 6495.01 on 
October 6, 2005, the Department has maintained policy, stated in 
paragraph 4.l of the current Directive dated January 23, 2012, that: 
Enlistment or commissioning of personnel in the Military Services shall 
be prohibited and no waivers are allowed when the person has a 
qualifying conviction for a crime of sexual assault.
    A ``qualifying conviction'' is defined in the Directive Glossary 
as: A State or Federal conviction, or a finding of guilty in a juvenile 
adjudication, for a felony crime of sexual assault and any general or 
special court-martial conviction for a Uniform Code of Military Justice 
(UCMJ) offense, which otherwise meets the elements of a crime of sexual 
assault, even though not classified as a felony or misdemeanor within 
the UCMJ. In addition, any offense that requires registration as a sex 
offender is a qualifying conviction.
    For those recruited into the Service who choose not to live by the 
Air Force core values, deterring their misconduct begins with 
convincing them that the risks associated with unprofessional behavior 
are too great. When institutional safeguards work properly, most will 
be dissuaded from misconduct, the few not dissuaded will be deterred 
from unprofessional behavior, and those not deterred must be detected 
and held accountable in a way that further strengthens dissuasion and 
deterrence for others. The Air Force is committed to sustaining high 
levels of professional conduct through persistent attention to and 
reinforcement of our core values from all levels of leadership.
    Ms. Speier. 19) On behalf of Mr. Cummings, Ranking Member of the 
House Oversight and Government Reform Committee: What specific actions 
has USAF taken to better prevent sexual assaults among women serving in 
or attached to units in combat zones given DOD's recommendations to 
enhance the position of women and in part make critical changes to its 
combat exclusion policy?
    General Welsh. Prior to the elimination of the 1994 Direct Ground 
Combat Definition and Assignment Rule, Air Force women were eligible to 
fill 99 percent of the authorized positions.
    The Air Force has six Sexual Assault Response Coordinators (SARC) 
assigned in the combat area of responsibility. In addition to these six 
SARCs, Air Force Central Command has instituted a ``Blue Line'' program 
to reach out to Airmen deployed to forward operating bases. Air Force 
SAPR Operations at Headquarters Air Force Personnel Center in San 
Antonio provides 24/7 reach back support to deployed SARCs on training, 
reporting and other issues. Additionally, the deployed SARCs 
participate in monthly teleconferences to benchmark and share concerns 
and best practices.
    Ms. Speier. 20) On behalf of Mr. Cummings, Ranking Member of the 
House Oversight and Government Reform Committee: What are the key 
challenges USAF has identified in implementing DOD's recommendations? 
What specific recommendations does USAF anticipate being fully 
implemented in the next 6 months, 1 year and 2 years from now?
    General Welsh. Though we anticipate fully implementing Department 
of Defense (DOD) recommendations, we do recognize challenges for the 
Air Force Sexual Assault Prevention and Response (SAPR) program due to 
current budget and resource constraints. The hiring freeze will impact 
the ability to fill critical vacant Sexual Assault Response Coordinator 
(SARC) and full-time Victim Advocate (VA) positions to comply with 
Fiscal Year 2012 National Defense Authorization Act requirements by 1 
October 2013.
    Furloughing runs an unprecedented risk to sustaining the 24/7/365 
SAPR capability and restricts access to institutional knowledge which 
may adversely impact victim care. Approximately 74 percent of 
installation-level SARCs and 84 percent of projected full-time VAs are 
civilian positions. The Air Force would need to rely heavily on 
military SARCs/Alternate SARCs (only assigned in some locations) and 
volunteer military VAs to sustain.
    Fiscal constraints and reduced budgets may impact SARC and VAs' 
opportunity to complete continued education units required to maintain 
certification. Additionally, installation level programs currently 
funded through Operation & Maintenance budgets may impact quality of 
program events.
    The following recommendations will be implemented within the next 
6, 12, and 24 months.

    Within 6 months:
    --  Additional leaders at Basic Military Training (BMT)
    --  Adjustment of the timing (conduct earlier) and frequency of 
SAPR training at BMT
    --  BMT student access to SAPR services
    --  Pre-Command SAPR training for Commanders and Senior Leaders (30 
Mar 2013)
    --  Revised SAPR Commander's Guide

    Within 12 months:
    --  New Unit Climate Assessment Requirements: conducted within 120 
days of command and then annually
    --  Air Force-wide enhancement to SAPR Training and Education

    Within 24 months:
    --  Selection of BMT instructors (more of them, more experience, 
better quality) to include selection of more female instructors (Dec 
2014)

    Ms. Speier. 21) On behalf of Mr. Cummings, Ranking Member of the 
House Oversight and Government Reform Committee: In June 2012, you were 
directed by Gen. Rice to conduct ``an independent 60-day Command 
Directed Investigation into faculty and staff misconduct with Basic 
Military Training [BMT] trainees and technical training [TT] students . 
. . [which] would deeply and deliberately evaluate the BMT and TT 
environments and obtain recommendations to enable Air Education 
Training Command to . . . ensure a command environment that effectively 
supports victims.'' Within the Command Directed Report, which consists 
of approximately 180 pages, there is no mention of victims being 
interviewed. Gen. Rice, at any time did you directly interview victims 
during the course of your work? Did your staff interview victims? If 
so, how many of the total identified victims to date did you or your 
staff meet with? Could you explain why victim interviews were not 
included in this report?
    General Rice. This question was answered in a letter to 
Congresswoman Speier. The letter was dated 12 Feb 13 and a copy was 
given to Congresswoman Speier's MLA by SAF/LL (Lt Col Peltzer) on that 
date.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
